<html>
<title> - THE FUTURE OF BORDER SECURITY: CAN SBINET SUCCEED?</title>
<body><pre>[House Hearing, 110 Congress]
[From the U.S. Government Printing Office]


 
                     THE FUTURE OF BORDER SECURITY:
                          CAN SBINET SUCCEED?

=======================================================================

                             JOINT HEARING

                               before the

     SUBCOMMITTEE ON BORDER, MARITIME, AND GLOBAL COUNTERTERRORISM

                             joint with the

        SUBCOMMITTEE ON MANAGEMENT, INVESTIGATIONS AND OVERSIGHT

                                 of the

                     COMMITTEE ON HOMELAND SECURITY
                        HOUSE OF REPRESENTATIVES

                       ONE HUNDRED TENTH CONGRESS

                             FIRST SESSION

                               __________

                            OCTOBER 24, 2007

                               __________

                           Serial No. 110-79

                               __________

       Printed for the use of the Committee on Homeland Security
                                     
[GRAPHIC] [TIFF OMITTED] TONGRESS.#13

                                     

  Available via the World Wide Web: http://www.gpoaccess.gov/congress/
                               index.html

                               __________

                  U.S. GOVERNMENT PRINTING OFFICE
48-974                    WASHINGTON : 2009
-----------------------------------------------------------------------
For Sale by the Superintendent of Documents, U.S. Government Printing Office
Internet: bookstore.gpo.gov  Phone: toll free (866) 512-1800; (202) 512�091800  
Fax: (202) 512�092104 Mail: Stop IDCC, Washington, DC 20402�0900012009


                     COMMITTEE ON HOMELAND SECURITY

               BENNIE G. THOMPSON, Mississippi, Chairman

LORETTA SANCHEZ, California,         PETER T. KING, New York
EDWARD J. MARKEY, Massachusetts      LAMAR SMITH, Texas
NORMAN D. DICKS, Washington          CHRISTOPHER SHAYS, Connecticut
JANE HARMAN, California              MARK E. SOUDER, Indiana
PETER A. DeFAZIO, Oregon             TOM DAVIS, Virginia
NITA M. LOWEY, New York              DANIEL E. LUNGREN, California
ELEANOR HOLMES NORTON, District of   MIKE ROGERS, Alabama
Columbia                             BOBBY JINDAL, Louisiana
ZOE LOFGREN, California              DAVID G. REICHERT, Washington
SHEILA JACKSON LEE, Texas            MICHAEL T. McCAUL, Texas
DONNA M. CHRISTENSEN, U.S. Virgin    CHARLES W. DENT, Pennsylvania
Islands                              GINNY BROWN-WAITE, Florida
BOB ETHERIDGE, North Carolina         MARSHA BLACKBURN, Tennessee
JAMES R. LANGEVIN, Rhode Island      GUS M. BILIRAKIS, Florida
HENRY CUELLAR, Texas                 DAVID DAVIS, Tennessee
CHRISTOPHER P. CARNEY, Pennsylvania
YVETTE D. CLARKE, New York
AL GREEN, Texas
ED PERLMUTTER, Colorado

       Jessica Herrera-Flanigan, Staff Director & General Counsel

                     Rosaline Cohen, Chief Counsel

                     Michael Twinchek, Chief Clerk

                Robert O'Connor, Minority Staff Director

                                 ______

     SUBCOMMITTEE ON BORDER, MARITIME, AND GLOBAL COUNTERTERRORISM

                LORETTA SANCHEZ, California, Chairwoman

JANE HARMAN, California              MARK E. SOUDER, Indiana
ZOE LOFGREN, California              BOBBY JINDAL, Louisiana
SHEILA JACKSON LEE, Texas            DAVID G. REICHERT, Washington
JAMES R. LANGEVIN, Rhode Island      MICHAEL T. McCAUL, Texas
HENRY CUELLAR, Texas                 GUS M. BILIRAKIS, Florida
AL GREEN, Texas                      PETER T. KING, New York (Ex 
BENNIE G. THOMPSON, Mississippi (Ex  Officio)
Officio)

                         Alison Rosso, Director

                         Denise Krepp, Counsel

                       Carla Zamudio-Dolan, Clerk

        Mandy Bowers, Minority Senior Professional Staff Member

                                 ______

       SUBCOMMITTEE ON MANAGEMENT, INVESTIGATIONS, AND OVERSIGHT

             CHRISTOPHER P. CARNEY, Pennsylvania, Chairman

PETER A. DeFAZIO, Oregon             MIKE ROGERS, Alabama
YVETTE D. CLARKE, New York           TOM DAVIS, Virginia
ED PERLMUTTER, Colorado              MICHAEL T. McCAUL, Texas
VACANCY                              PETER T. KING, New York (Ex 
BENNIE G. THOMPSON, Mississippi (Ex  Officio)
Officio)

                    Jeff Greene, Director & Counsel

                         Brian Turbyfill, Clerk

                    Michael Russell, Senior Counsel

                                  (ii)


                            C O N T E N T S

                              ----------                              
                                                                   Page

                               STATEMENTS

The Honorable Loretta Sanchez, a Representative in Congress from 
  the State of California, and Chairwoman, Subcommittee on 
  Border, Maritime, and Global Counterterrorism..................     1
The Honorable Mark E. Souder, a Representative in Congress from 
  the State of Indiana, and Ranking Member, Subcommittee on 
  Border, Maritime, and Gobal Counterterrorism...................     2
The Honorable Christopher P. Carney, a Representative in Congress 
  From the State of Pennsylvania, and Chairman, Subcommittee on 
  Management, Investigations, and Oversight......................     3
The Honorable Mike Rogers, a Representative in Congress from the 
  State of Alabama, Ranking Member, Subcommittee on Management, 
  Investigations, and Oversight:
  Prepared Statement.............................................     4
The Honorable Bennie G. Thompson, a Representative in Congress 
  from the State of Mississippi:
  Oral Statement.................................................     5
  Prepared Statement.............................................     6
The Honorable Henry Cuellar, a Representative in Congress from 
  the State of Texas.............................................    35
The Honorable Al Green, a Representative in Congress from the 
  State of Texas.................................................    43
The Honorable Bill Pascrell, Jr., a Representative in Congress 
  from the State of New Jersey...................................    25
The Honorable David G. Reichert, a Representative in Congress 
  from the State of Texas........................................    23

                               Witnesses

Mr. Gregory Giddens, Executive Director, Secure Border 
  Initiative, Department of Homeland Security:
  Oral Statement.................................................     7
  Prepared Statement.............................................     8
Chief Robert W. Gilbert, Chief Patrol Agent, Tucson Sector, 
  United States Border Patrol, Department of Homeland security:
  Oral Statement.................................................    10
  Prepared Statement.............................................    12
Mr. Roger Krone, President, Network and Space Systems, The Boeing 
  Company:
  Oral Statement.................................................    15
  Prepared Statement.............................................    17
  Accompanied by:
Mr. Jerry W. McElwee, Vice President, Advanced Systems, The 
  Boeing Company
Mr. Richard M. Stana, Director, Homeland Security and Justice, 
  Government Accountability Office...............................    13

                               Appendix I

The Honorable Sheila Jackson Lee, a Representative in Congress 
  from the State of Texas:
  Prepared Opening Statement.....................................    47

                              Appendix II

Additional Questions and Responses:
  Responses from Mr. Gregory Giddens.............................    49
  Responses from Mr. Robert W. Gilbert...........................    54
  Responses from Mr. Richard M. Stana............................    55


                     THE FUTURE OF BORDER SECURITY:
                          CAN SBINET SUCCEED?

                              ----------                              


                      Wednesday, October 24, 2007

             U.S. House of Representatives,
                    Committee on Homeland Security,
                          Subcommittee on Border, Maritime,
                               and Global Counterterrorism,
                                     joint with the
                                Subcommittee on Management,
                              Investigations and Oversight,
                                                    Washington, DC.
    The subcommittees met, pursuant to call, at 2:05 p.m., in 
Room 311, Cannon House Office Building, Hon. Loretta Sanchez 
[chairwoman of the Subcommittee on Border, Maritime, and Global 
Counterterrorism] presiding.
    Present for Subcommittee on Border, Maritime, and Global 
Counterterrorism: Representatives Sanchez, Harman, Cuellar, 
Green, Thompson (Ex Officio), Souder, and Reichert.
    Present for Subcommittee on Management, Investigations and 
Oversight: Representatives Carney, DeFazio, Clarke, Pascrell, 
and Rogers.
    Ms. Sanchez. The subcommittee will come to order.
    The Subcommittee on Border, Maritime and Global 
Counterterrorism and the Subcommittee on Management, 
Investigations and Oversight are meeting today to receive 
testimony on ``The future of Border Security: Can SBInet 
Succeed?''
    Good afternoon. I would like to thank our witnesses for 
appearing before us today and for providing our subcommittees 
with a briefing on SBInet several weeks ago.
    We are very interested in the progress being made on SBInet 
and the impact that this will have on improving our Nation's 
border security. There are several different projects within 
SBInet, and while it will be useful to get an update on all of 
them, of course, we are particularly concerned to hear about 
Project-28. Our subcommittees have closely followed the 
Project-28 process and the delays that have been a part of 
that, and we were led to believe at our June 7th hearing that 
this Project-28 would be operational by June 13th, and you 
already know my extreme disappointment with respect to that.
    So there needs to be more open communication about what is 
going on with our Nation's border security and with the SBInet 
projects between the committee and the Department and its 
contractors, and I hope that we can use today's hearing to 
better understand the issues that have caused those delays, to 
get an update on the actual status of Project-28, and to 
understand what that experience means for the rest of the 
SBInet Program.
    As to a virtual fence, I think many of us here are counting 
on the fact that a virtual fence will be a useful tool for the 
Border Patrol, and that is why we all want to ensure that 
Project-28 and future projects work for the Department's needs, 
and I really do believe that many of us here want this to 
succeed and want SBInet to succeed. We want to enhance our 
border security, so I look forward to the completion of that 
project, and I look forward to making sure that SBInet actually 
works for the American people.
    So I would like to thank Chairman Thompson, Chairman 
Carney, and Ranking Members King, Souder, and Rogers for their 
interest in this topic also.
    The Chair will now recognize the ranking member of the 
Border, Maritime and Global Counterterrorism Subcommittee, the 
gentleman from Indiana, for his opening statement.
    Mr. Souder. Thank you, Madam Chair.
    I want to say first that my thoughts and prayers are with 
you and your fellow Californians as these wildfires are raging. 
When our Nation faces a crisis from terrorism or from natural 
disaster, all appropriate, available government resources need 
to respond.
    I commend all of those involved in the firefighting effort. 
I know that the Customs and Border Protection has Border Patrol 
agents deployed to the area, and additional air assets are 
available to support these response efforts. It is very 
important that the Government pool its resources.
    I want to express appreciation for CBP's efforts, and they 
are here before us today.
    I also understand that several Border Patrol agents living 
in the area have lost their homes in the fire, and they have my 
sincere condolences.
    We had a disaster in my district, in Nappanee, Indiana, 
last Friday with a tornado. A small community of 5,000 lost 200 
homes, and we are still going through with FEMA on that as 
well.
    Just like Federal, State and local agencies are coming 
together to fight and to respond to the California wildfires, 
we need interagency coordination in other Homeland Security 
areas especially on border security and specifically on SBInet.
    I am concerned that, in developing, deploying and testing 
the technology for SBInet, there was little to no discussion, 
apparently, with the Department of Defense or with any other 
Federal agency to see what we have in the government inventory 
regarding surveillance solutions. I am afraid we are sometimes 
double and triple investing in different technologies and 
solutions due to lack of coordination and information-sharing.
    In 1997, I traveled to Khobar Towers after the bombings. 
DOD had installed a security/surveillance network of cameras 
and radar at Prince Sultan Air Force Base after that, and at 
that time, they were struggling with heat and dust and radar 
clutter. These are some of the same problems that we are still 
seeing in Project-28.
    I raise this for two reasons. Did anyone check with DOD to 
see what progress had been made in these areas over the last 10 
years? Two, I find it hard to believe that between the 
Department of Homeland Security and the contractor for SBInet, 
that we could not have predicted that we would face these 
similar challenges along the Southwest border that we are 
facing at our bases in desert countries.
    These stovepipes cannot remain. We focused on stovepipes in 
the intelligence area, but it is clear that we are seeing a 
lack of technology transfer and understanding of what other 
agencies in the Federal Government are working on, particularly 
between Homeland Security and Defense.
    I have spent a lot of time on the border during my 
congressional career, first as a staffer and, for the past 13-
1/2 years, basically as a Member. I had the opportunity to meet 
with the then Tucson Sector Chief, David Aguilar, several years 
ago, and he and his agents crafted a jerry-rigged system of 
store-bought cameras and duct tape. From there, we moved to the 
dysfunctional ISIS border camera system.
    Looking at the problems in P-28, I am concerned that we 
have not progressed very far. This subcommittee held a hearing 
on June 7th, 6 days before the original acceptance date for 
Project-28 was scheduled. Today's hearing is nearly 5 months 
later. I know that the Department and contractor are working 
extremely hard to get this right. I know that you are as 
frustrated with the delays as we are.
    From today's hearing, I am looking forward to information 
on the status of Project-28. What are the lessons learned so 
far? Where are we going? How does this fence fit in? What are 
the new life-cycle cost projections?
    I would also like to take a moment to welcome Chief 
Gilbert. I had the opportunity to meet with the Chief not long 
after his appointment as Chief of the Tucson Sector.
    I think that your presence here today will help frame the 
SBInet discussion in terms of the impact on the border security 
and how agents can actually use this system. I know that 7 
miles of new fencing are being instructed around the Sasabe 
port of entry. I am interested in your perspective on how this 
fencing has impacted security and illegal traffic in your 
sector. Chief, thanks for being here today.
    Madam Chair, again, I thank you for holding this hearing. I 
yield back the remainder of my time.
    Ms. Sanchez. I now recognize Chairman Carney for any 
opening statement he may have.
    Mr. Carney. Thank you, Madam Chair.
    I would like to thank you and your subcommittee for 
agreeing to work with my subcommittee on this issue. It is 
always a pleasure to be able to do things jointly and to 
address very problems that we see with DHS.
    We had, I think, a great hearing in May regarding Deepwater 
and the mess that program has become, and I want today's 
meeting to be as productive in helping us understand what is 
going on.
    Also, just a quick housekeeping note. As most of you know, 
I am pretty much a stickler for getting things in on time. The 
Department improved for a while, but it seems to be 
backsliding. I just would like the testimony in a timely 
fashion, please.
    Frankly, I am disappointed that we are now 4 months past 
the scheduled operational date for Project-28, and the system 
has yet to be successfully operated. I have seen in the 
testimony that you are now claiming significant progress has 
been made, but I am really wondering, as I am sure we all are, 
is Project-28 ever going to work as it was originally pitched 
to Congress and to DHS or are we pouring money down the drain.
    The potential to harness powerful commercial technologies 
and unite them in an efficient monitoring system for the border 
seems like such a good idea. During my Navy Reserve duty last 
month, I was sitting at a military base here in the U.S., 
commanding the Predator somewhere over Western Asia. Surely, 
there is a technology available that can allow us to establish 
a line of towers along the southern border that can monitor 
people illegally crossing. If we can fly Predators from the 
stateside overseas, we should be able to get that technology on 
board.
    We know that Project-28 just will not work if the radar is 
not functioning properly. When committee staff traveled down to 
Arizona earlier this month, the radar could not discern trees 
and bushes, blowing in the wind, from people. To have clutter 
like that distorting the radar picture just frustrates me, 
especially since this is supposed to be operational by now.
    I hope the progress you mention in your testimony is not 
what the staff saw a few weeks ago. From what I remember about 
the projected cost, these towers were sold to Congress and the 
American people as being significantly less expensive than 
building an actual fence. That said, the longer we sit around 
waiting for Project-28 to officially go live, the longer the 
border remains as porous as it is. While I commend the Border 
Patrol for stepping up their recruitment and training, it is 
doubtful that even once they are fully staffed at authorized 
levels that they will be able to do their job without the help 
of an effective SBInet technology.
    I am afraid this is just another example of the 
contractor's pitching the American public the ``end all, be 
all'' solution instead and wasting taxpayers' money and 
delivering little or nothing for it, a little more than smoke 
and mirrors. We have got to do better than this. I hope I am 
wrong, I truly do, and I challenge DHS and Boeing to prove me 
wrong, but I fear I will be proven right the longer Project-28 
sits idle. You have to do better, folks.
    Thank you, Madam Chair.
    Ms. Sanchez. I thank the chairman.
    Now I recognize the ranking member of the Management, 
Investigations and Oversight Subcommittee, the gentleman from 
Alabama, for his opening statement.
    Mr. Rogers. Thank you, Madam Chairwoman.
    We are about to be called for a vote, so in the interest of 
time, I would ask unanimous consent to submit my opening 
statement for the record so we can get to the witnesses.
    [The information follows:]

   Prepared Opening Statement of the Honorable Mike Rogers, Ranking 
   Member, Subcommittee on Management, Investigations, and Oversight

    This joint subcommittee hearing continues our oversight of the 
technology component of the Secure Border Initiative, referred to as 
SBInet.
    Let me first thank our witnesses for taking the time to be with us 
today.
    I also want to welcome back Mr. Greg Giddens, who has testified 
before the Management Subcommittee in the past on this important 
program.
    In November 2006, the Management Subcommittee held the first 
congressional hearing on SBInet and the newly awarded contract.
    Almost a year has passed since that hearing, and yet we are meeting 
today to examine why the first pilot program--known as Project 28--is 
not working.
    This development is especially troubling in light of our 
investigation of the existing border technology program in the 109th 
Congress.
    We found the Integrated Surveillance Intelligence System--or ISIS--
and its Remote Video Surveillance Program were plagued by 
mismanagement, operational problems, and financial waste.
    Specifically, we heard from the Homeland Security Inspector General 
that many cameras did not work and they were not integrated to ground 
sensors.
    Our Subcommittee put DHS on notice last year that the mistakes of 
the past should not be repeated in SBInet.
    Yet, we will hear today about new equipment that does not work and 
cameras that are not fully integrated to radars.
    Congress' patience is wearing thin.
    It is critical for our national security that DHS secure the 
borders now--not years from now.
    Therefore, today we will explore a number of key questions with our 
witnesses, including--
    Number One--When do you expect SBInet to work and how much will the 
total program cost?
    Number Two--What steps are you taking to ensure the problems of 
ISIS are not repeated in SBInet?
    Number Three--What safeguards are in place to ensure sound 
management and financial accountability of SBInet?
    And, Number Four--Why are you using steel from China--of all 
places--in building the border fence?
    Time is not on our side.
    The time to fix this program and secure our borders is now.
    I thank the Chair, and yield back.

    Ms. Sanchez. Thank you, Mr. Rogers.
    The Chair now recognizes the chairman of the full 
committee, the gentleman from Mississippi, Mr. Thompson, for an 
opening statement.
    Mr. Thompson. Thank you very much, Madam Chairman, and I 
will be brief.
    June 13th, 2007 was supposed to be an auspicious date for 
the SBInet Program and for the Department of Homeland Security 
as a whole. On that date, Project-28 was scheduled to be 
operational. Less than a week prior, on June 7th, 2007, this 
committee heard testimony from Department and Boeing 
representatives regarding the status of Project-28. No mention 
at that hearing was made of potential delays. No one disclosed 
any significant problems that could postpone Project-28 for 
many months, and yet, here we sit, 4-1/2 months later, and the 
project is still not operational. I am extremely dismayed, to 
put it mildly.
    SBInet is not a new concept. It is the Department's third 
border security technology initiative program. Many had hoped 
that Project-28 would finally offer an effective technology 
solution to better secure our borders, unlike SBInet's failed 
predecessors. We were told that, this time around, the outcome 
would be very different, partially because the Department had 
learned valuable lessons from prior mistakes. We were also told 
that Boeing's solution would be proven off-the-shelf 
technologies that would help mitigate risk and avoid the 
technical problems that plagued previous initiatives.
    Finally, we were told that these technologies would be 
integrated to give Border Patrol agents the real-time 
situational awareness they need to take control of this 28-mile 
stretch of the Arizona border.
    None of these commitments, as of this hearing, have been 
fulfilled. Technological problems remain, and Project-28 is not 
an operational tool to help Border Patrol agents secure the 
border. I have a growing sense of deja vu. We have been here 
before, and we have held hearings like this before. The 
Department cannot continue to do the same thing over and over 
again and expect a different result. We cannot continue to 
throw good taxpayer money after bad.
    Today, I need the Department and Boeing to tell me how they 
will turn Project-28 around. The Department owes the dedicated 
men and women of the Border Patrol an operational tool that 
will help them fulfill their mission. Most importantly, we owe 
the American people security and accountability. I can assure 
you that the committee will do its part by continuing to 
conduct vigorous oversight over Project-28 and the SBInet 
Program, in general, in the coming months and beyond.
    Thank you, Madam Chairman.

   Prepared Statement of the Honorable Bennie G. Thompson, Chairman, 
                     Committee on Homeland Security

    <bullet> June 13, 2007, was supposed to be an auspicious date for 
the SBInet program and for the Department of Homeland Security as a 
whole. On that date, Project 28 was scheduled to be operational.
    <bullet> Less than a week prior, on June 7, 2007, this Committee 
heard testimony from Department and Boeing representatives regarding 
the status of Project 28.
    <bullet> No mention was made of potential delays.
    <bullet> No one disclosed any significant problems that could 
postpone Project 28 for many months.
    <bullet> And yet here we sit, four-and-a-half months later, and the 
project is still not operational.
    <bullet> I am extremely dismayed, to put it mildly.
    <bullet> SBInet is not a new concept--it is the Department's third 
border security technology program.
    <bullet> Many had hoped that Project 28 would finally offer an 
effective technology solution to better secure our borders, unlike 
SBInet's failed predecessors.
    <bullet> Were told that this time around the outcome would be very 
different, partly because the Department has learned valuable lessons 
from prior mistakes.
    <bullet> We were also told that Boeing's solution would use proven, 
off-the-shelf technologies that would help mitigate risks and avoid the 
technical problems that plagued previous initiatives.
    <bullet> Finally, we were told that these technologies would be 
integrated to give Border Patrol agents the real-time situational 
awareness they need to take control of this 28-mile stretch of Arizona 
border.
    <bullet> None of those commitments have been fulfilled. 
Technological problems remain, and Project 28 is not an operational 
tool to help Border Patrol secure the border.
    <bullet> I have a growing sense of deja vu.
    <bullet> We have been here before, and we have held this hearing 
before.
    <bullet> The Department cannot continue to do the same thing over 
and over again and expect a different result.
    <bullet> We cannot continue to throw good taxpayer money after bad.
    <bullet> Today I need the Department and Boeing to tell me how they 
will turn Project 28 around.
    <bullet> The Department owes the dedicated men and women of the 
Border Patrol an operational tool that will help them fulfill their 
mission.
    <bullet> Most importantly, we owe the American people security and 
accountability.
    <bullet> I can assure you that the Committee will do its part by 
continuing to conduct vigorous oversight over Project 28 and the SBInet 
program in the coming months and beyond.

    Ms. Sanchez. I thank the gentleman.
    I will remind the other members of the subcommittee that, 
under committee rules, opening statements may be submitted for 
the record.
    Now I welcome our panel of witnesses. In the interest of 
time, because we have two votes coming up, I am hoping, maybe, 
we can get through some of this testimony, and then we will 
come back for some more testimony and questions.
    Our first witness, Mr. Gregory Giddens, is the Director of 
the Secure Border Initiative at the Department of Homeland 
Security. Our second witness, Chief Robert Gilbert, is the 
Chief Patrol Agent of the Border Patrol's Tucson Sector. He 
directs close to 3,000 employees and oversees the enforcement 
of 262 miles of Arizona-Mexico border, including where SBInet's 
Project-28 is located. Our third witness, Mr. Richard Stana, is 
the Director of Homeland Security and Justice issues at the 
Government Accountability Office. We have also seen his work 
before our committee before. Our fourth witness, Mr. Roger 
Krone, is the President of Network and Space Systems, a 
business of Boeing Integrated Defense Systems, which is 
responsible for the SBInet Program. Our final witness, Mr. 
Jerry McElwee, is the Vice President of Advanced Systems for 
the Boeing Company.
    Ms. Sanchez. So I went through that quickly and did not 
really give you the merit of all of your backgrounds simply 
because we really would like to hear from you. That having been 
said, without objection, your full statements will be inserted 
into the record, and I will now ask each of you to summarize 
those statements for 5 minutes or less.
    We will begin with Mr. Giddens.

     STATEMENT OF GREGORY GIDDENS, DIRECTOR, SECURE BORDER 
          INITIATIVE, DEPARTMENT OF HOMELAND SECURITY

    Mr. Giddens. Good afternoon, Chairwoman Sanchez, Chairman 
Carney, Chairman Thompson, Ranking Members Souder and Rogers, 
and other distinguished members of the committee. Thank you for 
this opportunity to come before you today to provide an update 
on SBInet.
    My name is Greg Giddens, and I am a 27-year civil servant, 
and I currently serve as the executive director of the Secure 
Border Initiative at Customs and Border Protection, and I will 
keep my opening remarks brief.
    As you know, SBInet is intending to provide tools to CBP 
agents and officers that will help them more effectively deter, 
detect and apprehend illegal entries into the United States. 
Project-28 is initial proof of concept of the SBInet technology 
solution taking place along a 28-mile stretch of the border in 
Sasabe, Arizona. Project-28 is intended to serve as a prototype 
that provides lessons learned to be incorporated into future 
SBInet efforts while, at the same time, providing tools to 
agents to assist them in difficult and dangerous tasks they 
face every day in the field.
    In addition, it is a prototype of only part of the system. 
It does not yet contain all of the unattended ground sensors 
nor the air assets that are crucial to supporting the border 
security mission.
    We have already begun to incorporate lessons learned from 
Project-28 into our follow-on efforts, including the design 
work for the next line of the Common Operating Picture and its 
associated integration work. This significant effort to follow 
P-28 was laid out in our expenditure plan which we first 
delivered to Congress in December of last year.
    Today, Project-28 has not been accepted by the Government. 
Boeing conducted system acceptance testing in the week of July 
30, 2007, at which time the system did not fulfill the 
performance work statements and the requirements. Customs and 
Border Protection is committed to ensuring that these issues 
are resolved before accepting the system from Boeing. Because 
of the SBInet Program, its plans and the contract structure put 
in place by the Government, we are not incurring any costs as 
Boeing continues to work to fix this system. We have restarted 
the testing for Project-28, but let me take the opportunity to 
address something that I did not address well at the hearing in 
June.
    Boeing is still integrating the system. That means they 
still have issues that they are working through. That means 
there are still risks with the schedule that we will talk about 
today. They have solved the majority of those systems' issues, 
but there is risk in this system. While we anticipate 
completing our testing in June, I just want to make it clear 
that there are still issues that Boeing is integrating on this 
system, but we have managed this in a way to protect the 
Government's interest and the Government's risk, and we will 
continue to do so. We do not intend to be date-driven but 
event-driven. We want to accept the system when it is ready.
    However, we will keep in mind that this is a prototype 
system; this is not the end-state solution for SBInet.
    While technology is important, it provides but one part of 
a comprehensive solution to border security. To secure each 
mile of the border requires a balance of technology, tactical 
infrastructure and personnel that is tailored to each specific 
environment. Customs and Border Protection recently exceeded 
our commitment to construct 70 miles of new fence by the end of 
2007 by constructing a little more than 76 miles of new fence. 
As of October 24, we now have a total of almost 159 miles of 
fence on the southwest border.
    Additionally, as an agency, Customs and Border Protection 
has made great strides towards securing our Nation's borders. 
In 2007, we added 2,574 Border Patrol agents, which now total 
14,923, and Border Patrol apprehensions along the southwest 
border decreased by around 20 percent when compared from 2006 
to 2007.
    I appreciate your continued support as we help fulfill DHS' 
mission of protecting our country and its citizens. I will be 
pleased to respond to any questions that you may have.
    [The statement of Mr. Giddens follows:]

                 Prepared Statement of Gregory Giddens

    CHAIRWOMAN SANCHEZ, CHAIRMAN CARNEY, RANKING MEMBERS SOUDER AND 
ROGERS, AND DISTINGUISHED SUBCOMMITTEE MEMBERS, it is my honor to have 
the opportunity to appear before you today to discuss updates on 
SBInet, which is a key component of the Department of Homeland 
Security's (DHS) Secure Border Initiative (SBI) that will provide U.S. 
Customs and Border Protection (CBP) with the tools necessary to gain 
effective control of the borders. My name is Greg Giddens. I am a 27-
year civil servant and I am the Executive Director of SBI. I would like 
to begin by giving you a brief overview of our agency and our mission.
    CBP acts as the guardian of our Nation's borders, safeguarding the 
homeland against the entry of terrorists and the instruments of 
terrorism and enforcing the laws of the United States while fostering 
the Nation's economic security through lawful travel and trade. Our 
Border Patrol Agents perform traditional and vitally important duties 
of detecting, apprehending, and deterring illegal aliens, smugglers, 
drugs, and other contraband between the ports of entry; and CBP 
officers carry out these interdiction and deterrence missions at our 
Nation's ports of entry while facilitating legitimate trade and legal 
immigration. This is done simultaneously and in conjunction with CBP 
Air and Marine interdiction agents, who protect and control our coastal 
borders and the air space above our borders and support the CBP mission 
on the ground.
    SBI is the comprehensive multi-year plan established by DHS to 
secure America's borders and reduce illegal immigration. Within this 
effort, CBP is the executive agent for SBInet, the component charged 
with designing, developing and implementing a solution that 
incorporates technology and tactical infrastructure to support Border 
Patrol agents between the ports of entry and CBP officers at the ports 
of entry to gain effective control of our Nation's borders. Through 
SBInet, CBP will field an effective mix of proven technology (radars, 
communication devices, cameras, sensors, and other equipment), 
infrastructure (vehicle and pedestrian fence, lighting, and all-weather 
roads), staffing, and response platforms, and will integrate existing 
resources into a single comprehensive and integrated border security 
solution. This SBInet solution will help Border Patrol agents, CBP 
officers, and Air and Marine interdiction agents more efficiently 
deter, detect and apprehend illegal entries into the United States.
    The initial prototype of the SBInet technology solution is taking 
place along a 28-mile stretch of the border in Sasabe, Arizona, in an 
effort known as Project 28. Project 28 is the first segment of an 
integrated system that will supply CBP agents and officers with the 
ability to detect illegal entries when they occur. The primary 
components of Project 28 are nine re-deployable mobile integrated 
sensor towers and cameras, enhanced communications, upgraded patrol 
vehicles, and Rapid Response Transport vehicles. Project 28 will 
provide Border Patrol agents with real-time information of both CBP 
assets and intruder locations.
    In September 2006, the Boeing Company was selected by CBP to be the 
SBInet prime contractor. The SBInet contract allows CBP to implement 
the program through task orders, and CBP awarded the Boeing Company the 
first task order for Project 28 in October 2006. Project 28 is designed 
to demonstrate the effectiveness of the larger SBInet system. Lessons 
learned from Project 28 will be incorporated into the SBInet integrated 
system, which will provide Border Patrol agents with tools to better 
assist them in detection of illegal entries, effective and efficient 
response to such entries, and appropriate law enforcement resolution of 
those situations.
    CBP has made significant progress in implementing Project 28. 
Boeing has deployed on schedule all 9 re-locatable camera and radar 
towers in the Project 28 area of operations in Sasabe. Also, all 50 of 
the Project 28 agent vehicles have been fitted with the Common 
Operating Picture (COP) hardware and 24 out of the 50 vehicles have the 
entire COP system to include computers, modems, and satellite phone 
connections. Border Patrol agents are receiving familiarization 
training on the Project 28 system every evening with a live system 
operating in a limited capacity. On several occasions, illegal alien 
groups have been detected, identified, and tracked using the Project 28 
system.
    However, integrating complex, off-the-shelf technology that has 
never before been integrated has proven to be a challenge and has 
resulted in technological difficulties which have delayed CBP's 
acceptance of the system. As of this date, Project 28 has not been 
accepted by the government, and will not be accepted until Boeing 
resolves a number of integration and software issues.
    Boeing conducted system acceptance testing the week of July 30, 
2007, at which time the system did not fulfill the performance work 
statement requirements. On August 3, 2007, CBP notified Boeing that it 
would not accept the system. CBP has provided Boeing with a list of 
deficiencies and direction on the path forward, and Boeing has 
expressed its commitment to fixing the system and delivering an 
operational capability to CBP. Integration and testing of the system is 
ongoing, and CBP is working with Boeing to resolve technical 
challenges. CBP is also working closely with Boeing to ensure DHS 
issues and concerns are expeditiously addressed and resolved in a 
collaborative, consistent manner. Project 28 has been baselined and a 
Change Control Board (CCB) has been established consistent with 
Boeing's Corrective Action Plan (CAP) to prevent further schedule 
slippages.
    CBP is committed to fully testing the Project 28 system to ensure 
the technology works, identifying any problems, and ensuring that 
deficiencies are corrected before accepting the system. Additionally, 
once CBP accepts the system, we will further evaluate the system's 
operational performance through field testing. CBP will use this 
information to develop and refine operations concepts and doctrine and 
inform future technology applications.
    At this time, the vast majority of the technical issues with 
Project 28 have been resolved, with only two major issues open. CBP has 
begun certification and accreditation testing and anticipates starting 
the System Verification Test in late October and completing testing in 
November.
    Because of the SBInet program plans and contracting structure, this 
delay will not have a contractual cost impact on CBP. This situation 
illustrates the utility and value of the Indefinite-Delivery-
Indefinite-Quantity contracting approach of SBInet; by issuing 
individual task orders for specific sections of the border, CBP can 
assess contractor performance at each step without committing future 
funding. Near-term SBInet projects beyond Project 28--such as Tucson, 
Yuma and others--are focused on design work so that later technology 
production and deployment to specific sections of the border can 
incorporate any lessons learned from the current project. Already, the 
government and Boeing have learned significant lessons from Project 28 
that have been incorporated into the follow-on Tucson and Yuma designs 
and the follow-on Common Operating Picture software designs.
    While technology remains a critical element of our strategy, it is 
not the only element of our layered defense plan. Securing our Nation's 
diverse border terrain is an important and complex task that cannot be 
resolved by a single solution alone. To secure each unique mile of the 
border requires a balance of technology, tactical infrastructure, and 
personnel that is tailored to each specific environment. Tactical 
infrastructure consists of roads (patrol, drag and access), fence 
(primary, secondary, and tertiary), vehicle fences, and lights. The 
installation of fencing has proven to be an effective tool to slow, 
redirect, and deter illegal entries, especially in certain areas where 
personnel and technology alone cannot sufficiently secure the border. 
For example, in an urban environment, an illegal entrant can be across 
the border and into the community in a matter of minutes, sometimes 
seconds. In this environment, fencing provides a critical barrier.
    CBP recently exceeded our commitment to construct 70 miles of new 
fence by the end of fiscal year 2007 by constructing 76.27 miles of new 
fence. This effort was comprised of 13 separate legacy and new 
projects, brought together under SBI. The majority of construction was 
completed in Arizona, with the remaining mileage in California and New 
Mexico, covering the San Diego, El Centro, Yuma, Tucson, and El Paso 
Border Patrol Sectors. The construction was carried out through 
multiple projects by the U.S. National Guard (Operation Jump Start), 
Joint Task Force North, private contractors through the U.S. Army Corps 
of Engineers, and the Boeing Company. The type of infrastructure used 
varied by location depending on operational requirements, the type of 
environment (urban, rural, remote) and its geographic and climatic 
characteristics (hills, rivers, mountains, forest, desert, etc.). As of 
16 October, we now have a total of 157.28 miles of fence on the 
southwest border.
    In a little over a year since the SBInet program began, CBP has 
made great strides toward securing our nation's borders, but we also 
recognize the challenges that lie ahead. By utilizing the latest 
technology and infrastructure, as part of a comprehensive solution that 
also includes additional well-trained personnel, and by maintaining a 
vigilant interior enforcement of our nation's immigration laws, we will 
continue to help DHS fulfill its mission of protecting our country and 
its citizens. I would like to thank Chairwoman Sanchez, Chairman 
Carney, Ranking Member Souder, and Ranking Member Rogers, and the 
members of the Committee, for the opportunity to present this testimony 
today, and for your continued support of DHS, CBP, and SBI. I would be 
pleased to respond to any questions that you may have at this time.

    Ms. Sanchez. We will now hear from Chief Gilbert for 5 
minutes.

STATEMENT OF ROBERT GILBERT, CHIEF PATROL AGENT, TUCSON SECTOR, 
  UNITED STATES BORDER PATROL, DEPARTMENT OF HOMELAND SECURITY

    Chief Gilbert. Thank you.
    Chairwoman Sanchez, Chairman Carney, Chairman Thompson, 
Ranking Members Souder and Rogers, and distinguished committee 
members.
    My name is Robert Gilbert and I am the Chief Patrol Agent 
of the Border Patrol's Tucson Sector. I am honored to appear on 
behalf of the Border Patrol as we share your interest in the 
safety of U.S. citizens as well as the 2,845 dedicated agents 
who serve along the border in the Tucson Sector. I am pleased 
to discuss the enforcement efforts that have taken place in my 
area of responsibility and to update you on the status of 
Project-28.
    The Border Patrol is a primary law enforcement agency 
responsible for protecting America's borders between the ports 
of entry. We are the first line of defense in DHS' multiagency 
effort to secure the border of our great country and to 
dismantle the violent smuggling organizations that threaten the 
American quality of life.
    This is especially true in Arizona where the Tucson Sector 
is the most active corridor for illegal border activity in the 
Nation. In fiscal year 2007, the Tucson Sector arrested 378,239 
illegal aliens, or 43 percent of the national apprehension 
total, and made 3,340 marijuana seizures, totaling 897,288 
pounds, which represents 48 percent of the 1,852,525 pounds 
seized nationally by the Border Patrol.
    The Border Patrol, as part of our national strategy, will 
continue to assess, develop and deploy the appropriate mix of 
technology, personnel and infrastructure to gain, maintain and 
expand our coverage of the border in an effort to use our 
resources in the most efficient fashion.
    As an example of technology, including the expansion of 
camera systems, biometrics, sensors, air assets, and improving 
communication systems all connect as force multipliers that 
help the Border Patrol to be more effective.
    One national example of beneficial technology is the IDENT/
IAFIS integration systems, which captures a single set of 
fingerprints and submits them simultaneously to DHS' Automated 
Biometric Identification System, or IDENT, and DOJ's integrated 
Automated Fingerprint Identification System, IAFIS, for 
identity checks.
    With immediate access to IAFIS nationwide, the Border 
Patrol agents have identified thousands of egregious offenders 
in fiscal year 2007, including over 300 homicide suspects, 460 
sex crime suspects, 130 kidnapping suspects, and 11,600 
suspects involved in dangerous drugs and trafficking, all of 
whom otherwise may have gone undetected. With 18,800 major 
crime hits and over 143,000 IAFIS hits throughout fiscal year 
2007, we have made significant strides towards improving 
national security and greatly enhancing our ability to secure 
our Nation's borders through the development of better 
technology.
    The Border Patrol anticipates that Project-28 will be a 
tremendous force multiplier to our overall operating 
capabilities. We expect that Project-28 is going to be an 
important part of the overall ray of technology that will 
enhance and accelerate the Border Patrol's ability to secure 
our border and to maintain national security. The technological 
capabilities of Project-28 will bring to the Border Patrol and 
will give us, along with the additional personnel and tactical 
infrastructure that are being added, the means to expand our 
operational control of the border. As customers of SBInet and 
Boeing--DHS, CBP and the Border Patrol--we have not yet 
accepted this project and are eagerly awaiting its delivery.
    The Border Patrol's objective is nothing less than securing 
operational control of the border. We recognize the challenges 
of doing so as we have dealt with them for many years. 
Challenges continue to lie ahead, and the need for a 
comprehensive enforcement approach remains. Our national 
strategy gives us a means by which to achieve our ambitious 
goal. We face these challenges every day with vigilance, 
dedication to service and integrity as we work to strengthen 
national security and to protect America and its citizens.
    I would like to thank you for this opportunity to present 
my testimony today and for your support of CBP and DHS, and I 
would be pleased to respond to any questions that you may have 
at this time.
    [The statement of Chief Gilbert follows:]

                  Prepared Statement of Robert Gilbert

    CHAIRWOMAN SANCHEZ, CHAIRMAN CARNEY, RANKING MEMBERS SOUDER AND 
ROGERS, AND DISTINGUISHED COMMITTEE MEMBERS: My name is Robert Gilbert, 
and I am the Chief Patrol Agent of the Border Patrol's Tucson Sector. I 
am honored to appear on behalf of the Border Patrol as we share your 
interest in the safety of U.S. citizens, as well as the 2845 great and 
dedicated agents that serve along the border in the Tucson Sector. I am 
pleased to discuss the enforcement efforts that have taken place in my 
area of responsibility and update you on the status of Project-28.
    The Border Patrol is the primary enforcement agency responsible for 
protecting America's border between the ports of entry. We are the 
first line of defense in DHS' multi-agency effort to secure the border 
of our great country and dismantle the violent smuggling organizations 
that threaten the American quality of life. This is especially true in 
Arizona where the Tucson Sector is the most active corridor of illegal 
border activity in the Nation. In FY 2007, the Tucson Sector arrested 
378,239 illegal aliens, 43% of the national apprehension total and made 
3340 marijuana seizures totaling 897,288 pounds, which represents 48% 
of the 1,852,525 pounds seized nationally by the Border Patrol.
    In the past year, we have added 3 Ground Surveillance Radars, 
utilized the Interior Repatriation Program, added a focused Targeted 
Prosecution Program, and conducted remote camp details in Sells, Bates 
Well, Papago Farms, Sasabe, and Camp Desert Grip to maximize the 
resources we have available. Tucson has benefited from national 
programs such as Operation Jump Start, utilizing the National Guard as 
an interim force multiplier as we increase our enforcement resources. 
Another national program is Operation Stone Garden which provides 
state, local and tribal agencies funding through DHS' Law Enforcement 
Terrorism Prevention Program to enhance border security. A total of 
Twenty-one law enforcement agencies participated in Operation Stone 
Garden in Tucson Sector this last fiscal year.
    The Border Patrol, as part of our National Strategy will continue 
to assess, develop, and deploy the appropriate mix of technology, 
personnel, and infrastructure to gain, maintain, and expand coverage of 
the border in an effort to use our resources in the most efficient 
fashion. As an example, the use of technology, including the expansion 
of camera systems, biometrics, sensors, air assets, and improving 
communications systems, can act as a force multiplier that helps Border 
Patrol to be more effective.
    One national example of beneficial technology is the IDENT/IAFIS 
integrated system, which captures a single set of fingerprints and 
submits them simultaneously to DHS' Automated Biometric Identification 
System (IDENT) and DOJ's Integrated Automated Fingerprint 
Identification System (IAFIS) for identity checks. With immediate 
access to IAFIS nationwide, Border Patrol agents have identified 
thousands of egregious offenders in FY 2007, including over 300 
homicide suspects, 460 sex crime suspects, 130 kidnapping suspects, and 
11,600 suspects involved in dangerous drugs or trafficking, all of whom 
otherwise may have gone undetected. With 18,800 major crime hits and 
over 143,000 IAFIS hits through fiscal year 2007, we have made 
significant strides towards improving national security and greatly 
enhancing our ability to secure our Nation's borders through the 
development of better technology.
    The Border Patrol anticipates that Project-28 will be a tremendous 
force multiplier to our overall operating capabilities. We expect that 
Project-28 is going to be an important part of an overall array of 
technology that will enhance and accelerate the Border Patrol's ability 
to secure our borders and maintain national security. The technological 
capabilities that Project-28 will bring to the Border Patrol, along 
with the additional personnel and tactical infrastructure that are 
being added, will give us the means to expand our operational control 
of the border. As customers of SBInet and Boeing, DHS/CBP/Border Patrol 
have not yet accepted this project and are eagerly awaiting its 
initiation.
    The Border Patrol's objective is nothing less than securing 
operational control of the border. We recognize the challenges of doing 
so, as we have dealt with them for many years. Challenges continue to 
lie ahead and the need for a comprehensive enforcement approach 
remains. Our national strategy gives us the means by which to achieve 
our ambitious goal. We face these challenges every day with vigilance, 
dedication to service, and integrity as we work to strengthen national 
security and protect America and its citizens. I would like to thank 
you for the opportunity to present this testimony today and for your 
support of CBP and DHS. I would be pleased to respond to any questions 
that you might have at this time.

    Ms. Sanchez. Okay. Thank you for your testimony.
    We are going to break, go over and vote. I believe there 
are a couple of votes on the floor, and so we will stand in 
recess, maybe, for--it could be up to about 30 minutes or so. 
So, gentlemen, if you want to go get a Coke or something, we 
would love to have you back and proceed in about 30 minutes.
    Thank you.
    [Recess.]
    Ms. Sanchez. The subcommittee is now back in order.
    As to our third witness, Mr. Richard Stana, we will 
recognize him now for 5 minutes.

  STATEMENT OF RICHARD STANA, DIRECTOR, HOMELAND SECURITY AND 
        JUSTICE ISSUES, GOVERNMENT ACCOUNTABILITY OFFICE

    Mr. Stana. Chairwoman Sanchez, Chairman Carney, Ranking 
Members Souder and Rogers and members of the subcommittee, 
shortly after the launch of the Secure Border Initiative, the 
committee asked us to review the SBInet Program and to provide 
periodic updates on the status of our efforts and interim 
findings. I appreciate the opportunity to provide our first 
formal update today.
    As you know, SBInet is a multiyear, multibillion dollar 
program aimed as stemming illegal entry into the country 
between ports of entry. For fiscal year 2007, Congress 
appropriated about $1.2 billion for SBInet, about 40 percent of 
which was committed or obligated as of September 30th. For 
fiscal year 2008, DHS has requested an additional $1 billion. 
My prepared statement summarizes our work to date, and I would 
like to take the next few minutes highlighting our results in 
several areas.
    Technology Deployment. Although components of the system 
were delivered on time, Boeing's inability thus far to resolve 
system integration issues has left Project-28 incomplete more 
than 4 months after its original June 13th milestone. That was 
the date when Border Patrol agents were to begin using Project-
28 technology to support its operations. The problem involves 
the inability to integrate into one Common Operating Picture--
the feeds of cameras, radars and unattended ground sensors. In 
August, DHS formally notified Boeing that it would not accept 
the Project-28 solution until these problems were corrected. 
DHS has taken steps to strengthen its contract management for 
Project-28 to address contractor performance challenges. Delays 
in getting Project-28 to work properly may increase the cost 
schedule and performance risks for subsequent SBInet technology 
deployments.
    Fencing and Vehicle Barriers. SBInet plans to have 370 
miles of pedestrian fencing and 200 miles of vehicle barriers 
in place throughout the Southwest border by the end of next 
year. As of September 30th, 151 miles of pedestrian fencing and 
110 miles of vehicle barriers have been constructed. SBInet 
contract fencing costs range from about $700,000 per mile at 
San Luis to about $4.8 million per mile at Sasabe. Costs vary 
due to terrain, materials used, if land acquisition is 
necessary, who does the construction, and the need to beat an 
estimated expedited schedule. Although tactical infrastructure 
deployment is on track, meeting deployment goals may be 
challenging and more costly than planned. DHS funded a fence 
lab to identify low costs and easily deployed fencing solutions 
and plans to try to contain future fencing costs by using the 
results of this effort.
    Border Patrol Staffing and Procedures. The Border Patrol 
has taken initial steps to provide facilities for the 18,000 
agents it expects to have on board in December 2008. It plans 
to provide a combination of temporary and permanent facilities 
to accommodate new agents, and it has projected a cost of about 
$550 million in construction over the next 5 years. SBInet is 
expected to be a force multiplier by greatly reducing the time 
needed by the Border Patrol to perform detection and 
characterization activities. However, no one knows whether more 
or fewer Border Patrol agents and other assets will be needed 
because Boeing's SBInet solution has not yet been fully 
identified, tested or fielded. It is also unknown how or to 
what extent the SBInet technology will change the Border 
Patrol's operating procedures. The Border Patrol trained 22 
trainers and 333 operators in the Tucson Sector to operate the 
system, but recent modifications and implementation delays will 
require the agents to be retrained. The Border Patrol in the 
Tucson Sector is reviewing its standard operating procedures to 
incorporate the SBInet technology into the way they do their 
job. Border Patrol headquarters will reevaluate its national 
strategy after the system is operational and tested and end 
user feedback is provided.
    Finally, Project Management. The SBInet Program Management 
Office staffing increased from 79 in October 2006 to 247 as of 
September 30th, but it fell short of meeting its goal of 270 
staff. We have not yet examined whether the project managers 
currently on board have been certified to manage the projects 
they were assigned. A draft human capital plan, which describes 
the numbers, skill levels and responsibilities of SBInet staff, 
has not yet been approved, so we cannot tell whether it fully 
addresses the issues we raised in our February report. For its 
part, Boeing has recently beefed up its contract management 
staff to help resolve SBInet performance issues.
    In closing, Project-28 and other early technology and 
infrastructure projects are the first steps on a long road 
toward SBInet implementation that will ultimately require an 
investment of billions of taxpayer dollars. Some of these early 
projects have encountered unforeseen problems that could affect 
DHS' ability to meet projected completion dates, expected costs 
and performance goals. These issues underscore Congress' need 
to stay closely attuned to SBInet implementation activities to 
make sure that the performance schedule and cost estimates are 
achieved and that the Nation's border security needs are fully 
addressed.
    I would be happy to answer any questions the subcommittee 
may have.
    Ms. Sanchez. Thank you, Mr. Stana.
    [The statement of Mr. Stana follows:] \1\
---------------------------------------------------------------------------
    \1\ See GAO ``SECURE BORDER INITIATIVE: Observations on Selected 
aspects of SBInet Program Implementation'', Wednesday, October 24, 
2007, GAO-08-131T.
---------------------------------------------------------------------------
    Ms. Sanchez. Now I will recognize for 5 minutes Mr. Roger 
Krone.

STATEMENT OF ROGER KRONE, PRESIDENT, NETWORK AND SPACE SYSTEMS, 
ACCOMPANIED BY JERRY McELWEE, VICE PRESIDENT, ADVANCED SYSTEMS, 
                         BOEING COMPANY

    Mr. Krone. Great. Good afternoon, Chairwoman Sanchez, 
Ranking Member Souder, Chairman Carney, Ranking Member Rogers, 
and other members of the subcommittee.
    It is a pleasure to be here this afternoon to talk to you 
about Boeing's work on the SBInet Program. I am Roger Krone, 
President of Boeing's Network and Space Systems Business Unit. 
With me today at the table is Jerry McElwee, Vice President, 
Advanced Systems.
    As you know from prior meetings, Mr. McElwee led the Boeing 
team on the SBInet Program from proposal through the first 
phase of the program. On August 1st, as previously planned, the 
program transitioned from Boeing's Advanced Systems 
organization to Network and Space Systems.
    Mr. Dan Korte assumed the program lead at that time. Mr. 
Korte is with me here today, sitting in the row behind me. His 
background is in Supply Chain Management, and he has been 
invaluable to the program. Because we are integrating 
components from partners and suppliers into a system of 
systems, managing the value stream is important.
    At the outset, let me emphasize that the success of the 
SBInet Program is of critical importance to the Boeing Company. 
We are absolutely committed to making this program work, and we 
are dedicating the resources needed to do so.
    Since Boeing began working on the SBInet Program just a 
little over a year ago, we have made significant progress. In 
the first phase of the project, called the ``Barry M. Goldwater 
Range'' near Yuma, Arizona, we have successfully completed 9 
miles of physical barriers and 1 mile of fencing. In phase 2 of 
that project, we installed an additional 22-1/2 miles of 
barrier and 30-1/2 miles of fencing, and this was completed in 
late September prior to the end of the fiscal year, and we have 
brought some posters of what that fencing looks like. Our 
SBInet Program set ambitious goals for small business 
participation which, I am pleased to report, we are exceeding. 
At the end of August, 69 percent of our subcontract dollars 
were with small businesses.
    Boeing is also working Project-28. As you heard during Mr. 
Giddens' discussion, Project-28 has not been without its 
challenges. Boeing targeted initial operating capability in 
June. Regrettably, we encountered systems integration issues 
during the dry-run testing that started on June 4th and was 
ongoing at the time of the last hearing. As a result of those 
tests, we determined that it would require more time to fix the 
software issues. Today, though, all of the equipment is in 
place and is functioning. The system completed the first phase 
of testing in mid-October, as I mentioned in the September 25th 
Member briefing, called ``Certification and Accreditation 
Scans,'' and we are addressing a few remaining issues, after 
which, the Project-28 system will enter Systems Verification 
Testing.
    What I would like to do, if I could, is to show a short 
video, within my 5 minutes, to highlight some features of the 
system. In the video, you will see the towers, the C2 Center in 
the Tucson Sector. We will take you inside one of the Border 
Patrol Agent vehicles, 50 of which we upgraded under the 
program. Let us go ahead and run the video, please.
    So the 28 miles is centered around Sasabe in Southern 
Arizona as shown on the map. We provide nine towers--these are 
portable towers--98 feet in heighth. There are three components 
on the towers--the tower perimeter system, a communications 
system and, at the top, a radar which you can see at the top. 
Then there are three cameras--a black and white, a color and a 
night vision infrared camera.
    In the Tucson Sector, we have the Command and Control 
Communications Center. That is where the COP is, the Common 
Operating Picture. There you can see the COP up on screens. 
There is one of our trainers actually training a Border Patrol 
Agent. This is actual video from the P-28 system of ten 
individuals crossing the border, and this is the same video I 
showed on the 25th of the three individuals. Both of those 
videos were taken in the month of September.
    Next, we will take you inside one of the Border Patrol 
Agent vehicles, and we will show how the remote control of the 
towers operates. There is a Border Patrol Agent. That is the 
laptop point-and-click system, and then you can actually use a 
wand on a touch screen to remotely control the pan tilt and 
zoom of the cameras. There she is in voice contact with the 
Command and Control Center. All of the communications are up 
and running. She has taken local control of the camera on the 
tower, using the Border Patrol vehicle system, and you can see 
that she is slewing the camera. It shows the camera responding 
to her requests. All of this is up and running. All of this is 
functional.
    As you have seen from the video today, the system is 
substantially improved. Overall, camera control is good. The 
system is consistently able to slew to new radar targets and to 
successfully record people crossing the border. Camera 
elevation difficulties have been fixed, and a solution for the 
radar display delays have been implemented. As noted earlier, 
the system entered CBP testing in October as we mentioned on 
the 25th of September. CBP will determine when testing is 
complete and the system is ready for operational use.
    Madam Chair, I know the delays have been disappointing for 
everyone, and I apologize for that. Additional effort to 
enhance the system has been funded by Boeing and our supplier 
team. The Government has not spent one dollar over the fixed 
price contract to bring this system to bear. The lessons that 
we have learned in this demonstration will be extremely 
valuable in our continued effort to protect the Nation's 
borders and to expand the technology system across the southern 
border.
    Thank you, and I look forward to your questions.
    [The statement of Mr. Krone and Mr McElwee follows:]

       Prepared Statement of Roger A. Krone and Jerry W. McElwee

    Good afternoon, Chairwoman Sanchez, Ranking Member Souder, Chairman 
Carney and Ranking Member Rogers. It is a pleasure to be here before 
this joint meeting of the Border, Maritime, and Global Counterterrorism 
and Management, Investigations and Oversight Subcommittees.
    I am Roger Krone, President of Boeing's Network and Space Systems 
business unit. With me today at the witness table is Mr. Jerry McElwee, 
Vice President, Advanced Systems. As you know from prior meetings, Mr. 
McElwee led the Boeing team on SBInet from proposal through the first 
phase of the program. On August 1, when the program transitioned from 
Advanced Systems to Network and Space Systems, Mr. Dan Korte assumed 
that lead role as project manager. Mr. Korte, who is also with me here 
today, has more than 20 years of experience in design and system 
engineering, integrated product team leadership, and program 
management. Most recently, he served as Vice President of Supplier 
Management and Procurement for Boeing Integrated Defense Systems. His 
background in supply chain management is invaluable to the program, 
because we are integrating components from partners and suppliers into 
a system of systems.
    On September 25, I briefed members of the Committee on the status 
of SBInet. I'm pleased to have this opportunity to update the committee 
on this important program. We realize that this is a program of great 
interest to you, as it is to the Department of Homeland Security (DHS), 
Customs and Border Protection (CBP), and the American public. It is 
also of critical importance to The Boeing Company. We are absolutely 
committed to making this program work, and we are dedicating the 
resources needed to achieve success for SBInet
    As you know, the objective of the SBInet program is to design, 
deploy and sustain a technological and tactical infrastructure to 
support the Department of Homeland Security in its mission to secure 
America's borders. Since Boeing began working on SBInet just a little 
over a year ago, we have made significant progress in achieving these 
objectives:
        <bullet> In the first phase of a project on the Barry M. 
        Goldwater Range (BMGR) near Yuma, Arizona--where there is a 
        serious problem of people crossing the border illegally onto an 
        active bombing range--we successfully completed by April 1, 
        2007, nine miles of physical barriers and one mile of fencing.
        <bullet> In July 2007, we began Phase 2 of this project to 
        install an additional 22.5 miles of barriers and 30.5 miles of 
        fencing. This was completed in late September. We are now 
        working with CBP on Phase 3 of the BMGR project, which will add 
        surveillance technology to the fencing.
        <bullet> We are collaborating with CBP to specify requirements 
        and have started preliminary design work for the remainder of 
        the Yuma and Tucson Sectors, Texas Mobile System, and El Paso 
        Sector. Each will be a separate task order and together they 
        will deploy the SBInet system across all of Arizona, all of New 
        Mexico, and about 70 miles of Texas.
        <bullet> Our program set ambitious goals for Small Business 
        participation, which I am pleased to report, we are exceeding. 
        As of the end of August, 69 percent of our subcontract dollars 
        were with small businesses
        <bullet> On Project 28--which is a $20 million fixed price task 
        order to install a demonstration of SBInet technologies along 
        28 miles of the Arizona-Mexico border--we have installed a 
        network of sensors, communications equipment, and command and 
        control capability to provide the Border Patrol a ``common 
        operating picture'' (COP) for this critical border area. The 
        equipment is in place and functioning, although not yet 
        accepted by CBP. The system completed the first phase of 
        testing in mid October, called Certification and Accreditation 
        scans. We are addressing a few remaining issues, after which, 
        the Project 28 system will enter the Systems Verification Test.
    We appreciate the interest of the committee and the visit by staff 
to the command center in Tucson on October 5. As they saw, the center 
is very much a work site with engineering, software development, and 
testing as well as agent training in progress. They personally observed 
one of the issues we face: excess targets (clutter) on the radar 
screens. We continue to address that and all other issues, and have 
made significant progress. For example, improvements on the ``clutter'' 
issue include installation of anti-clutter software to reduce the 
number of targets showing on the screen; increased operator training to 
help classify targets; and the use of ``tracks'' rather than static 
hits to indicate potential crossers on the radar screen.
    The development of Project 28 has not been without its challenges. 
When Boeing appeared before this Committee in early June, we targeted 
initial operating capability in approximately seven days time. 
Regrettably, we encountered system integration issues during the ``dry 
run'' testing that started on June 4, and we subsequently concluded 
that we would need more time to fix the software issues. The problems 
included camera focus and slewing to target; radar tracking and time 
delays; radar/camera interface; and radar/camera/ COP integration. We 
notified CBP that based on the tests, we could no longer hold to our 
engineering schedules. They alerted this committee on the following 
day. In retrospect, from the start, we should have done a better job of 
making the committee aware of the inherent schedule and performance 
risks associated with a demonstration program of this kind.
    After addressing the system issues that emerged in June, and 
updating the necessary integration features, we entered Systems 
Verification Test with CBP in late July. After reviewing the test 
results, CBP concluded that additional functionality would be required. 
We met with CBP, and worked out a mutually agreed list of corrections 
and upgrades, and have been working through the list since early 
August. Among the upgrades are ``slew-to-click,'' auto-focus, auto-
ranging, increased communications bandwidth between the sensor towers 
and the station, and capabilities that allow mobile Border Patrol 
Agents to not only view camera video from the towers, but also to 
control the pan, tilt, zoom and focus of the cameras from their 
vehicles.
    Today, the system is substantially improved. Overall camera control 
is good. The system is consistently able to slew to new radar targets 
and successfully record people crossing the border. Camera elevation 
difficulties have been fixed and a solution for radar display delays 
has been implemented. As noted earlier, the system entered CBP testing 
in mid-October. CBP will determine when testing is complete and the 
system is ready for operational use.
    Madam Chair, I know the delays have been disappointing for 
everyone. The additional effort to enhance this system has been funded 
by Boeing and our supplier team. The lessons we have learned in this 
demonstration will be extremely valuable in our continued efforts to 
protect our nation's borders.
    Thank you and I look forward to your questions.

    Ms. Sanchez. I thank the witness. For our final witness, I 
will now recognize Mr. Jerry McElwee for 5 minutes.
    Mr. McElwee. Thank you, Madam Chair, but I have included my 
comments in Mr. Krone's statement.
    Ms. Sanchez. Great. Then thank you all for your testimony.
    I would like to, at this time, remind members that we will 
go to questions. Each member will have 5 minutes to question 
the witnesses, and usually, I go to Mr. Carney, but let me ask 
a quick question, on my time, of Mr. Stana.
    Do you believe, now having looked at this project--you 
know, there are a lot of us here who are thinking about this 
whole issue of how do we control the border and this virtual 
fence, and there are a lot of people who say let us just corner 
it off and build a big fence and, I do not know, shoot people 
when they try to repel over it or something, and many of us are 
trying to think of what is the best way, you know, to really 
control this border.
    My question to you is, and it stems from the fact that we 
really do not know whether it is going to take more or less CBP 
once we get something like a Project-28 up or if we do that and 
then extend it across our southern border and, I would think, 
at some point to our northern border, too, by the way.
    Do you think this is a solution, really? I mean now, with 
what you know, do you think that something like a virtual fence 
is the solution?
    Mr. Stana. Well, I think any solution has different 
components to it. Part of the solution could be the virtual 
fence we saw. You know, we saw it in a hearing room. We have 
not seen it tested in Arizona yet, and so the results of the 
test will help answer that question.
    I also think that, you know, having different barriers, 
whether it is fencing in key strategic areas, vehicle barriers 
in strategic areas and, of course, the right complement of 
Border Patrol agents, that all three of those have to come 
together and work well. We have not looked at the drones that 
are being talked about to patrol the border, so that might be 
an element of this also.
    I might also mention that we do not know how many Border 
Patrol agents it is going to take to make this whole system 
work. It may initially take more, and as the success of the 
program, you know, bears fruit and we are able to apprehend 
more and fewer people try, we may be able to reduce the number, 
but initially, if more and more individuals are identified and 
are characterized when they cross the border, someone has to be 
available to respond to that, and if we do not have the agents 
to do that with the vehicles and with the other equipment it 
takes to do the work, then all of this is going to be something 
that helps us count the people we do not get.
    Ms. Sanchez. Of course, we need detention centers or 
turnback centers and all of the infrastructure that is required 
the for people we are catching.
    Mr. Stana. Well, there is that. Also, this equipment that 
we are seeing today is expensive equipment, but it is also 
expensive to maintain and to periodically replace, and that is 
why it is important to have a total life cycle cost of what we 
are talking about here so we can make informed decisions on the 
way to go.
    Ms. Sanchez. Thank you, Mr. Stana.
    I will now yield 5 minutes to Mr. Carney, the chairman of 
the Oversight Committee.
    Mr. Carney. Thank you, Madam Chair. I appreciate it.
    Mr. McElwee, in Mr. Krone's written statement, he described 
Project-28 as, ``a demonstration of SBI technology.'' I do not 
think we ever understood P-28 to be just a demonstration 
project. Our understanding was that P-28 was to be the first 
piece of a fully functional virtual fence. Are we trying to 
lower expectations here?
    Mr. McElwee. Actually, no, sir.
    The RFP, the Request for Proposal, came out in April of 
2006. In that Request for Proposal, they requested that the 
bidder offer for $20 million a demonstration of part or some 
portion of their total proposal. From the Boeing perspective, 
we looked at that and said, ``What are the high risks 
associated with deploying our solution into the border area, 
particularly in the Southwest?'' The conclusion we reached was 
that the first question is ``Will a surveillance system work? 
Will cameras and radars in that environment provide Border 
Patrol agents insight into the people trying to cross the 
border?''
    The second issue, of course, we were concerned about is the 
user interface. However, because of the type of contract, we 
understood that we would have limited access to Border Patrol 
agents, and we chose to provide only a rudimentary user 
interface until such time as we could go on to the next task 
order, which was proposed in the RFP to be the Tucson Sector. 
That was, in our review, a 2-year effort from start to finish, 
and we intended to develop a more robust user interface during 
that deployment.
    Mr. Carney. So you are saying then that Project-28 was 
never intended to be a fully functional piece of a more 
comprehensive border solution?
    Mr. McElwee. It was up to the bidder to determine what they 
chose to bid, and in our case, we selected the items that you 
see deployed. After that deployment, we made several 
enhancements primarily to the user interface. We discovered 
that you really do need the ability to point to an item on the 
screen and to cause the camera to slew to that point. That had 
not been part of our initial offering.
    Mr. Carney. Mr. Giddens, do you care to comment on that?
    Mr. Giddens. Yes, sir.
    As I mentioned in the oral, P-28 is a prototype, but I do 
not want to--you said ``fully functional.'' There needs to be 
functionality there so that the Border Patrol can take that and 
use that in an operational environment. They can look at con 
ops doctrine tactics and bring that information back to us so 
that we can mature the next version.
    In the fiscal year 2007 President's budget, there was a 
request for money to further P-28, recognizing it was a 
prototype, and Congress appropriated money in 2007 for that, 
and we again requested money in 2008 for that. So, from our 
budgeting and planning perspective, we view this as a 
prototype. It is not the end state of SBInet, but it is 
something that we need to learn from not only programmatically 
and technically--and we have learned from it already even 
though it is not accepted, but the next learning that we need 
is to get it into an operational state so that the Border 
Patrol has an opportunity to use it and so we can glean their 
inputs as we go forward with the solution for 2008.
    Mr. Carney. Thank you.
    Mr. Krone, again, in your testimony, you noted that, when 
our staff visited P-28, they saw clutter on the screens, on the 
radar screens. You also said that improvements have been made 
with anti-clutter software, for example, and with the use of 
``tracks'' rather than static hits; is that correct?
    Mr. Krone. That is correct.
    Mr. Carney. Okay. Were these changes made after the staff 
visited P-28 or had they already been installed?
    Mr. Krone. Well, let us see. In general, they were made 
prior to the trip. Although, if I may, the issues that you see 
are really not radar issues. They are how the radar track file 
is dealt with in a common operating environment, and we have, 
actually, gone to a system since June where we changed the gain 
on the radar system, right, to remove a lot of the spurious 
hits, and that is true of both rain, which I think has been 
mentioned, and other moving objects. What we have is a Ku-band 
Doppler radar, which detects motion. So, if a piece of 
shrubbery is moving at more than 1-1/2 feet per minute, it is 
going to come up with a radar track. What we have done is 
using--we can use gain to filter those out, and then also 
vegetation, obviously, does not move; it does not create a 
track file; it does not create a streak across the screen. By 
using gain and also some training of the operators, we are able 
to easily distinguish between fixed objects like trees and 
bushes, moisture and actual people crossing the border, so----
    Mr. Carney. So have we fixed the blurred vision of trees 
blowing in the wind? Can we distinguish between a tree blowing 
in the wind and a person now walking?
    Mr. Krone. Yes, we believe we can. Yes, sir.
    Mr. Carney. Okay. All right. I guess my time is up for now. 
I yield back. Thank you.
    Ms. Sanchez. Now I will recognize Mr. Souder, the ranking 
member of the Border Committee.
    Mr. Souder. Thank you very much, Madam Chairman, and we 
have been having a continuing dialogue and unofficial meetings 
that are ongoing as well, so I want to make sure I just put a 
couple of things on the record since this is only our first 
official hearing on this subject since June.
    One is that, during the Senate immigration debate, the 
implication was that we were on the verge of having this 
deployed for the entire border, and we were rushing through an 
immigration bill because we did not have control of the border. 
Some of the misunderstanding was caused by the administration 
overselling what you all technically in the field knew what was 
not happening, but part of the political consternation that has 
compounded this is the fact that, during those debates, all 
sorts of implications were made about the status that now is 
resoundingly not true. That has compounded it.
    Secondly, I saw in some of the information provided for the 
hearing that the cost of steel has caused soaring costs on the 
physical fence. We held a hearing, when I was chairman over in 
the Government Reform and Oversight Committee, on fencing, and 
there were multiple different types of fencing that could be 
done and that, as a district that is the home to New Core and 
particularly that is the home to--they have many plants in New 
Core--but is the home to SDI, now arguably the biggest or 
second biggest steel company in the United States, these were 
foreseeable problems on steel, and there needed to be 
alternative types of fencing, and there still are alternative 
types of fencing that can be done because, with four times the 
cost when the steel is going up and down and with the 
availability, it needs to be counterbalanced in the planning.
    The third point that I would like to just pursue briefly 
with Chief Gilbert is that we just held a meeting with ICE from 
Washington, Chicago and Indianapolis with prosecutors, sheriffs 
and jail commanders in my district of how to deal with the 
increasing chaos caused by not having a comprehensive or any 
immigration strategy. What we heard from prosecutors was, even 
though ICE was now responding and people were going back, they 
were back in 48 hours. We talked about this challenge at the 
border as well. The detention center is merely a holding thing 
to see if there were other crimes and they do not come back.
    If this system, Project-28, is in place and we can see 
everybody coming in, how quickly do you think it will be until 
they are right back? As long as there is not a penalty, why 
won't they just come right back through?
    Chief Gilbert. One of the things, sir, that we are working 
towards is an actual prosecution program called ``Operation 
Streamline.'' We have implemented it with success in Del Rio, 
Texas as well as in Yuma, Arizona, and that is exactly what it 
does. There is a penalty for the crime of illegally entering 
the country. Those individuals are put in the system; they are 
prosecuted, and they are being put in jail. That, in itself, 
has shown to be a great deterrent.
    In the larger sectors, Laredo is just kicking this program 
off, and we are planning in Tucson to hopefully kick it off 
soon as well because we believe, once there is a deterrent and 
you are actually penalized, if you will, and criminally 
prosecuted, that that will serve to help get control of our 
borders.
    Mr. Souder. Thank you. I will follow up more directly with 
the Department on that. That is a very important component to 
any border control. Otherwise, all we are doing is watching 
repeated people.
    I want to pursue in my last brief time here what I raised 
in my opening statement. I know, in my district, I have all 
sorts of defense electronics contractors--General Dynamics, 
Raytheon, ITT, BAE, USSI. Presumably, we have detection around, 
say, nuclear bomb facilities. I mentioned different bases 
overseas. I mentioned that, 10 years ago, we were trying to 
deal with the same separation questions, the same wind 
questions, the same sand questions.
    Are there prohibitions? What has been the problem that the 
people who have devised this technology in the military sector 
did not coordinate with Boeing?
    Mr. McElwee. That is a great question, sir.
    In fact, what we did in putting the demonstration project 
together was to look at a wide range of immediately available 
solutions. As you can imagine, some of the long lead for some 
of the military technology, based on what was going on in Iraq, 
was fairly long.
    We selected a radar, which is the Army's ground 
surveillance radar. It is in use today. It is one of the most 
widely deployed systems in the world. We selected a camera that 
has a range, a camera range, that matches the radar, and that 
is not easy to do. We selected that camera. It also had been 
deployed into the deserts in the Mid East and on some very cold 
borders as well, so we had proven technology.
    The COP, the Common Operational Picture, was a law 
enforcement system that had over 600 deployments to law 
enforcement agencies, not only in the U.S. but around the 
world. As Mr. Krone had indicated, the challenge that we faced 
then was to pull those together very quickly to provide a 
capability that would, in fact, allow us to verify that we had 
a concept that would work.
    Mr. Souder. The gentleman--if I may, Madam Chairman, follow 
up with that.
    A company called 3D, which was purchased by General 
Dynamics in my district, particularly has an integration system 
that they have looked for, in working with Homeland Security, 
to decide if it is more radio communications, but the 
fundamental question that I ask, because it sounds like you 
took different technologies that had not been deployed together 
and tried to put them together to meet the budget that was 
given to you, but I will ask a different fundamental question, 
which is:
    Did you look at what actually was working in our bases and 
at nuclear facilities and in other places and then see--I 
understand, if the cost were too high, that could come back to 
us. If it were proprietary information, that could have come 
back to us. This is a broader question we have in the Federal 
Government of: Did you have access to see that? Were you 
restricted? Did you make the attempt? Did Homeland Security 
attempt to do it? Because why should the taxpayers be paying 
for the simultaneous development of different systems in 
different agencies?
    Mr. McElwee. Sir, we were not restricted at all, and what 
we have done--well, during the proposal phase, yes. I mean it 
was a Boeing proposal with our team, and so we used the 
resources available to us.
    Subsequently what we did--in fact, we started this in the 
April time frame--is we went out to all of industry, both U.S. 
and overseas. 900-plus representatives from industry came to a 
day of understanding what ``SBInet'' is. We identified our 
requirements. We subsequently sent out RFPs, and we have just 
recently completed the toolkit, and we have, in fact, included 
many of the technologies that are being deployed today. The 
choice or the selection process was best value. We included not 
only the Boeing folks in the selection process, but we allowed 
or encouraged Customs and Border Protection to also have some 
insight into why we made the various selections, and we just 
completed an extensive review of each of those selections with 
CBP.
    Mr. Souder. So do you believe the Defense Department has 
the same problems?
    Mr. McElwee. I am sorry, sir.
    Mr. Souder. Do you believe the Defense Department has the 
same problems in providing base protection, nuclear facility--
--
    Mr. McElwee. Oh, absolutely. It is very similar.
    The issue that we have is they have at least an 
infrastructure in place. Power lines are run, and it is a 
simpler challenge trying to think of 6,000 miles of border as a 
perimeter of 6,000 miles, and that is a little more 
challenging, but technology for surveillance at least should be 
much the same.
    Mr. Souder. Thank you, Madam Chairman.
    Ms. Sanchez. I will recognize Mr. Reichert for 5 minutes.
    Mr. Reichert. Thank you, Madam Chair.
    I just want to follow up on a couple of points that have 
already been kind of touched on.
    There was mention of the RFP out in 2006, and there was $20 
million, and you pretty much had the free rein in deciding how 
you were going to approach this problem, but there was one 
comment that was made that interested me.
    You said you had limited access to the users. Was that 
language that was included in the RFP?
    Mr. McElwee. No, sir. We had, roughly, 45 days in which to 
pull together a technical solution that represented the best 
value approach and the type of overall solution we thought most 
appropriate, so we devoted several weeks but not several 
months. The latest effort to pull together the toolkit has been 
ongoing for almost a year.
    Mr. Reichert. So your interaction with the users, 
essentially the Border Patrol--it was not a directive in the 
RFP. It was not a directive from the Department of Homeland 
Security or from the Border Patrol at all?
    Does anybody want to add to that?
    Mr. McElwee. As part of the proposal effort, we were given 
a due diligence visit to both the Swanton Sector in the 
Northeast and to the Tucson Sector in the Southwest. During 
that 2-day visit, we were allowed to ask any questions, and we 
received a whole series of briefings.
    Mr. Reichert. But you did not have free access to the users 
to continue this partnership. Why was that?
    Mr. McElwee. I should say one thing. We had a team of 
Border Patrol agents in the February-March time frame who gave 
us some insight as we were pulling together our Common 
Operational Picture. That was one time and it was, I think 
there were lessons learned from that, and then we implemented 
those, as we could, from the April time frame.
    Mr. Reichert. I guess I am just trying to get to: Why 
wasn't there a recognition at the beginning of this project 
that the user would be one of the most important or, if not, 
the most important key in creating a successful operation 
product?
    Mr. McElwee. I will jump in again.
    My background prior to coming to this project was with a 
future combat system where we had a very close relationship 
with the U.S. Army, but that was a development contract, and we 
had multiple opportunities to co-develop many of the 
requirements and the solutions. This is a firm fixed price, and 
I think there was some concern on the Government's side that by 
asking us to make changes or suggesting changes that they would 
incur additional costs.
    Mr. Reichert. Does anyone else on the panel wish to address 
the question?
    Mr. Krone. Sir, I would like to make one statement.
    Since the issues have arisen in the May-June time frame, 
there has been a very close collaboration with the Border 
Patrol agents, and we have Border Patrol agents with us in our 
development facility in Tucson almost daily. There is actually 
a Border Patrol agent who has been assigned to CBP in the 
acquisition process, and we interface with Rowdy on a daily 
basis. So, although this situation did exist in the early part 
of the program, from the Boeing standpoint, we are very pleased 
with the access that we now have to the Border Patrol agents.
    Mr. Reichert. Okay. That is good news.
    I ask this question based upon some past experience that I 
have in law enforcement, and sometimes as the person driving 
around in a police car, the command staff is not especially 
excited about having their rank and file have input into those 
things because it could raise the cost. They want all of the 
bells, whistles and gadgets, and so there is some hesitancy 
there sometimes.
    I do not know, Chief. Was that a concern on your part or 
not?
    Chief Gilbert. Actually, sir, early on in the process, we 
were not allowed to be sitting next to the developing program 
at that time because of contractual issues. It was not until 
that was cleared up, I would say, in the May, June, July time 
frame that we were actually allowed to get involved in helping 
develop the process, and we took our subject matter experts 
from the field and brought them in to the ones with an 
understanding for systems to start working this from the Border 
Patrol's standpoint.
    Mr. Stana. But this underscores the kind of risks that you 
incur with this type of a contractor, with a lead integrator. 
If the requirements are not built from the bottom up, you run 
the risk of developing a system that is not as useful as it 
could be, number 1.
    Mr. Reichert. Yes.
    Mr. Stana. Number 2, we are going into testing, and we are 
testing a capability that the Border Patrol rank and file may 
not be altogether comfortable with.
    Mr. Reichert. So who is responsible for writing the 
contract?
    Mr. Giddens. Our organization was responsible for the 
source selection, and in that source selection, we gave the 
competing industry teams the ability to propose the types of 
contracts they believed best fit the risk of their system, and 
it was the nature of that firm fixed price contract, while we 
from Customs and Border Protection attended design reviews and 
sat in on those, that we did not give guidance in terms of 
contract changes to this firm fixed price proposal, which, I 
think, is one of the reasons that we are in this place now 
where the Government is not spending money on this system 
because it was under a firm fixed price; it was not delivered, 
and Boeing is fixing it on their own money.
    Mr. Reichert. Right.
    If I could just make one quick comment, Madam Chair. I know 
my time has expired, but this certainly, to me, seems to be one 
of those highlighted areas, which would be that it may be in 
the top ten of lessons learned in building any sort of a 
project, program or tool. The persons using the tool need to be 
involved in the process of constructing the tool. I do not 
think we would be here today, delayed as much as we have been, 
if that had been the case at the very beginning.
    Mr. Giddens. Sir, in going forward, we are not doing design 
work under a firm fixed price, so we had that opportunity to 
change from the very beginning, so we did change the contract 
type after the source selection.
    Mr. Reichert. Okay. Thank you.
    I yield. Thank you.
    Ms. Sanchez. I now recognize the gentleman from New Jersey, 
Mr. Pascrell, for 5 minutes.
    Mr. Pascrell. Thank you, Madam Chairwoman.
    Mr. Giddens, it is my strongly held belief--I mean, I 
really believe this--that border security cannot be 
accomplished by simply erecting a physical barrier or relying 
entirely on technology. Our Nation needs a multilayered, 
multifaceted approach to the problem. That is my personal 
opinion.
    I also fear that the current inability of the Department to 
find a border security solution that actually works makes it 
impossible for Congress to enact real immigration reform. And I 
believe you understand the connection of the two. Because you 
can't deal with the question of what to do with undocumented 
people in our Nation until we can stop the flow of people who 
are illegally coming across the border, south and north.
    I will get to the north part in my second series of 
questions.
    So my first question is, what were your real expectations 
for the SBInet when this entire process started? And be concise 
and please be specific.
    Mr. Giddens. Sir, I would like to start--I share your 
concern that it has to be a comprehensive approach. There is no 
silver bullet for this. It takes, as was talked about before, 
detention as well as efforts at the border, intelligence beyond 
the border, work-site enforcement, and prosecutorial actions at 
the border.
    Mr. Pascrell. What were your real expectations?
    Mr. Giddens. My real expectations for this effort were that 
P28 would come out and be delivered in June and give us an 
ability to learn in this 28-mile segment so that we could apply 
it across the border, particularly Arizona, which is the next 
place that my customer, the Border Patrol, indicates that they 
want the system deployed, is within Arizona.
    So our expectation with this was to learn lessons on the 28 
miles and apply them to the almost 400 miles of the Arizona 
border.
    Mr. Pascrell. So this was a real expectation of yours, that 
by June this system would be in place for at least the first 28 
miles--
    Mr. Giddens. As a prototype system that we would learn 
from.
    Mr. Pascrell. Right. Thank you.
    My second question is, did you expect that this technology 
could replace or vastly reduce the necessity for physical 
barriers and additional Border Patrol agents at the places 
where this technology was deployed?
    Mr. Giddens. Sir, I could barely address the tactical 
infrastructure and would ask perhaps the Border Patrol agent, 
that I would refer that to Chief Gilbert.
    We view tactical infrastructure and technology as not 
substitutes. They serve different purposes.
    Mr. Pascrell. But this is a policy decision. This is not 
the Chief's decision. This is a policy decision. And my 
question is, did you expect the technology to replace or vastly 
reduce the necessity for physical barriers and additional 
Border Patrol? That is your question, not his.
    Mr. Giddens. Well, no, sir. I think it is a mix, and it is 
not my job to determine where tactical infrastructure goes.
    Mr. Pascrell. Well, who determines that?
    Mr. Giddens. That is the Border Patrol.
    Mr. Pascrell. Well, he can't determine that unless he knows 
that the technology is in place, correct?
    Mr. Giddens. I guess I will let the----
    Mr. Pascrell. Does he establish the expectations for the 
technology? When I say ``he,'' I am sorry, Chief Gilbert. That 
is not his expectations.
    Mr. Giddens. Correct.
    Mr. Pascrell. Okay. You agree with me?
    Mr. Giddens. I agree.
    Mr. Pascrell. Well, whose expectations are they, then?
    Mr. Giddens. The expectations are jointly derived from the 
requirements that the Border Patrol has and the program office. 
But they do drive where the tactical infrastructure goes. And I 
thought your question was related to the tactical 
infrastructure.
    Mr. Pascrell. All right. The third question is this: Now 
that you have seen the setbacks, now that you have seen the 
current limitations to the technology, what are your current 
expectations? What are your current expectations in regard to 
the physical need for additional physical barriers and a larger 
Border Patrol presence? What are your expectations today?
    Mr. Giddens. My expectations, particularly on the tactical 
infrastructure, is 370 miles of primary pedestrian fence, along 
with a vehicle fence along 200 to 300 miles of the southwest 
border.
    Mr. Pascrell. So your expectations today are the same 
expectations you had----
    Mr. Giddens. Yes, sir. Because I believe that, while P28 is 
delayed and it is not successful, that we have learned from 
that, and we can apply that to the Arizona border and beyond on 
the southwest border.
    Mr. Pascrell. Mr. Giddens, I know that your job title 
relates to the SBInet in its deployment along our border with 
Mexico. You folks would think, to listen to our questions and 
my questions and questions that have been pushed through the 
Congress, that the only border we have is Mexico. I had a look 
back on the map, before I came to the meeting today, to make 
sure that our other borders are still existing, that I was not 
having an existential moment here.
    So I hope you can help me, if I may, Madam Chair, inform 
the committee about the Department's efforts to deal with the 
challenges of the other border we have, 5,522-some-odd miles of 
Canada, the border to the north, which compares rather starkly 
to the 1,969 miles along the south. While we may not have the 
same degree of concern about illegal border crossings in 
regards to immigration--which I find interesting, which I find 
very interesting--we must surely have great concern about the 
possibility that terrorists would choose to infiltrate our 
northern border.
    I mean, it is just common sense to tell you that it will 
come through across the Rio Grande, right? You agree with me? I 
wasn't--that is not my belief, but is that your belief?
    Mr. Giddens. That there is a threat on the northern border?
    Mr. Pascrell. Yeah.
    Mr. Giddens. Yes, sir. And CBP is taking actions to address 
northern border threats.
    Mr. Pascrell. Okay. Then that feeds right into my question. 
Does the Department have a real, multifaceted plan to address 
the liabilities we have on our northern border? What are your 
expectations there, for the record?
    Mr. Giddens. Sir, I can speak from Customs and Border 
Protection but not from the Department perspective on this. So 
I can tell you what we are doing.
    Mr. Pascrell. You only deal with the south?
    Mr. Giddens. No, sir. But at Customs and Border Protection, 
where I work, is where I believe I can speak best from, and not 
from departments' efforts that are outside of Customs and 
Border Protection.
    Within Customs and Border Protection, we are applying air 
assets on the northern border. We are increasing the number of 
Border Patrol agents. We are taking a technology approach to 
the northern border starting this year.
    Mr. Pascrell. Are there any plans to build any fences along 
the northern border since we have so few Border Patrol compared 
to the amount of miles? Are we going to build any fences along 
the northern border?
    Mr. Giddens. I don't know the answer to that question. We 
are going to put technology on the northern border, and we are 
going to start that this year.
    Mr. Pascrell. I mean, it is a pretty long border, and we 
don't have enough patrol. Have we eliminated the possibility of 
building fences along the northern border? Are we afraid that 
we are going to embarrass or insult our northern neighbors, 
unlike Mexico? What is the difference?
    Mr. Giddens. No, sir. We have not eliminated options on the 
northern border.
    Ms. Sanchez. The gentleman's time has expired.
    Mr. Pascrell. Thank you.
    Ms. Sanchez. I will now recognize Mr. Carney for 5 minutes.
    Mr. Carney. Thank you, Madam Chairwoman.
    Mr. Krone, I want to follow up. A few minutes ago, we were 
talking about the fixes to the radar system, et cetera, and the 
fuzzy screens. You said the fixes were put in since June. The 
staff, in fact, noted the same problems when they visited a few 
weeks ago. Does it work?
    Mr. Krone. Right. Actually, sir, in your question, we do 
know that the staff was out there about 2, 2-1/2 weeks ago. And 
when you asked the question, I assumed it was around the staff 
visit. And the automatic gain had been installed prior to the 
staff visit. But since I wasn't in the room at the time, I 
can't tell you how well it was used to reduce the amount of 
radar clutter on the common operating picture. But the gain had 
been installed and could be used to reduce the number of 
spurious targets it showed in the COP.
    And since then, we actually have done some work on some 
cabling and some filtering to help reduce the number of 
spurious hits.
    So, again, what I felt I was doing at the time was 
addressing the staff visit that happened a couple of weeks ago. 
And we were informed after the visit that there--it was a windy 
day, there were lots of spurious targets, and the gain was not 
used the way it can be used to reduce the number of, again, 
radar tracks on the COP.
    Mr. Carney. Are the operators in the COP trained on how to 
use the gain?
    Mr. Krone. They will be. And I think, as Mr. Stana spoke 
of, is that we went through initial training on system, as it 
existed in the June time frame. And as we stabilize the system 
and bring it on for use, there will be some of the aspects that 
we have incorporated in the system since, frankly, the June and 
July time frame, at the request of the Border Patrol agents to 
enhance the ability of the system to function, which we will 
have to go back and do additional training on.
    Mr. Carney. Okay.
    Mr. Giddens, the Department has said--I think I recall a 
conversation we had in a previous hearing--that if it is not 
satisfied with Boeing, you won't hesitate to look for another 
contractor. Are we satisfied with Boeing?
    Mr. Giddens. On Project 28, we are not satisfied with 
Boeing's performance. They are late.
    On the Barry M. Goldwater Range, we were very satisfied 
with Boeing's performance, as they put up, in a very 
inhospitable area, over 31 miles of pedestrian fence.
    Now, the effort that Boeing is doing is they are designing 
the common operational picture under P28. And the design work 
that they are doing on the hardware and integration, we are 
satisfied with that effort.
    So we have several contracts ongoing with Boeing. Clearly, 
with P28, we are not satisfied, we are not happy with their 
performance. But on the other efforts that they have, we are.
    Mr. Carney. Okay. On those efforts that you are not 
satisfied with, you are not happy with, does Boeing still have 
an advantage if you wanted to go to another contractor, for 
example, because of all the time on the ground that they have 
gained? Do they have a lock on this, no matter what?
    Mr. Giddens. No, sir, they don't have a lock on this, no 
matter what. But there are several cases that have talked about 
the value of an incumbency, and I won't sit here and deny that 
if someone has been working on an effort for 1 year, 2 years, 3 
years, that there is an issue of incumbency. But I will also 
tell you that there are source selections that the incumbent 
does not win. So, that business, there is no such thing as a 
lock.
    Mr. Carney. Okay. How many more months do we wait before 
this is operational to the point we are satisfied? I mean, how 
long do we give it?
    Mr. Giddens. We are anticipating finishing testing in 
November, and I think that will be a touch point for us all.
    Mr. Carney. Okay.
    Mr. Stana, what do you think about this?
    Mr. Stana. Well, there have been a few bumps in the road, 
obviously, since the project began. If you look at the progress 
reports, dating all the way to last December, there were red 
flags popping up. The staff was hurried in its product 
development, a lot of the cushion left, which is why I think 
maybe people didn't really understand what state it was in the 
last time you had your hearing, in June.
    I guess, you know, we will find out. Right now, I am sure 
Boeing has many more dollars than $20 million invested in this. 
I guess I take exception to some level with the Department's 
view that, because it is fixed-priced, they are limited in what 
they can do. And, at one level, they are. But at another level, 
if you see that things aren't working well and this is a 
chokepoint to further deployments of technology along the 
border, why not jump in and fix it early, rather than wait 
until later? Even if it might cost a little more, you have to 
weigh that cost benefit there.
    Another thing, I think you pointed this out earlier with 
this--and if I may, I am a little confused, too, with the 
terminology being used. It used to be operational capability, 
and now it is a test bed. In the contract, it says the Border 
Patrol was going to be given something which it will use in the 
future.
    Mr. Carney. Yes. Yes.
    Mr. Stana. And now it sounds like it is a grand experiment 
of some sort. Maybe I am mischaracterizing it, but I must say I 
am a bit confused in what it is that we are expected to have 
delivered in November or January or whenever it is, and what it 
is, how that dictates the testing that is going to be done. Is 
the bar higher or lower?
    Mr. Carney. Right. And as a consequence, what policy do we, 
as policymakers, create because of it? I think Mr. Souder's 
dead-on in making that point.
    And if I might request one more question?
    Mr. Stana, again, from your work, what are you hearing 
about what the agents in the field think about P28 and the COP?
    Mr. Stana. Well, you know, it has been a month since I have 
been there, and maybe since all these fixes have happened and--
well, we will find out if they are fixed. But a month ago, the 
folks that I spoke to--which is limited and unscientific--were 
a bit skeptical. I mean, when you bring people through training 
and then say that we are going to have to retrain you because 
things have changed so much, it causes skepticism. When you 
promise to have a screen in a vehicle that is going to be able 
to pinpoint aliens, and then you find out that you are chasing 
raindrops, it causes skepticism.
    So I think that the agents are really counting on--at least 
they told me--they are counting on a tool that is going to help 
them do their job, and it is a tough one. But until that is 
proven, I think that skepticism is going to remain.
    Mr. Carney. Mr. Krone, how many of those screens in the car 
that you can skew the radar with do you have deployed?
    Mr. Krone. We are on contract for 50, but we are a little 
short of 50. We have 44 installed today.
    Mr. Carney. And do they all work as well as we saw in the--
--
    Mr. Krone. Yeah. Oh, yeah. Yeah, they do.
    Mr. Carney. All right. All right. No further questions. I 
thank you for your time.
    Mr. Krone. Thank you.
    Ms. Sanchez. Mr. Souder, would you like another 5 minutes?
    Mr. Souder. Yes, thank you.
    Mr. Giddens, why was the choice made to put the physical 
barriers and a physical fence at the Barry Goldwater Range, 
rather than electronic?
    Mr. Giddens. We worked--and when you said ``instead of,'' 
we are going to put technology or what has been termed 
sometimes today the ``virtual fence'' on the Barry M. Goldwater 
Range. Our team is to put that technology along every mile of 
the southwest border, not just places where there is----
    Mr. Souder. Let me re-ask my question. Why are you putting 
physical fencing along the Barry Goldwater Range but not at 
Sasabe? I mean, there is a little bit at Sasabe but in the 
overall Project 28.
    Mr. Giddens. See, that was driven largely because of the 
live firing range and at the Barry M. Goldwater----
    Mr. Souder. That is what I suspected. What you are saying 
is a physical fence actually works better. Because it is really 
critical that these people don't get into that firing range. 
Therefore, we are going to go physical and electronic because 
it works better.
    Mr. Giddens. No, sir, that is not what I am saying. The 
Barry M. Goldwater Range, in terms of defense and the impacts 
if someone goes through and the time that the Border Patrol 
would have to respond and the environment on the Barry M. 
Goldwater Range and the request permission to go on the range 
and respond, depending on what they are doing, creates a 
different environment than you would find outside of the range.
    Mr. Souder. And you really would have to make sure that 
they didn't get killed.
    Mr. Giddens. Yes, sir. I think safety is one of the 
aspects.
    Mr. Souder. What most Americans would like to see is a 
similar commitment along the border and to know what that real 
cost is. It may be very high. But there is a different risk. 
And I understand the Border Patrol cars, you know, there are 
other functions there. But you are going to have to have cars--
whether you have a physical fence, electronic fence, Border 
Patrol is still going to have to get there. A physical fence 
actually just manages--sure, they are going to go over the 
fence, sometimes cut a hole in the fence, and various type of 
things. But you channel and you can get your Border Patrol 
better grouped than if you just have open electronic. It 
doesn't really stop anybody unless we combine it with 
something.
    And so, your fallback position, they are moving at a high 
rate of speed, nothing has been done to slow them down, nothing 
has been done other than identify that they are coming in. 
Where you have it blended, you have a different approach. That 
is what I was raising at the Barry Goldwater Range. ``Hey, this 
is really critical,'' and the Government is somewhat treating 
that a little different.
    I want to ask Mr. Stana, that it was really interesting in 
this bidding question, as we go on, because certainly Boeing is 
going to have an advantage because, given how hard it has been 
to come up with a system that works, we don't really want to 
pay for yet another variation of that, and it would be 
proprietary to some degree.
    How exactly does that work, in this case? Will it be 
proprietary information to Boeing? Is it shared with the 
Government? Particularly since they put additional costs in, as 
we expand this, would a normal contracting procedure enable 
them to recoup some of their costs?
    I mean, I deal with this in defense contracting in my 
district, you know, and often, once you get the lead, you can 
build back in a certain amount. How are the taxpayers going to 
sort this through?
    Mr. Stana. Yeah. That is a very interesting question 
because, obviously, they are not making money on Project 28. I 
don't know the exact figure, but it is probably much more than 
$20 million that they have invested in this.
    I think it would be best to ask Mr. Giddens about that. I 
am not sure what the contract calls for. I believe the 
infrastructure and the equipment is turned over to the 
Government because the Government purchased it. But beyond 
that, I am not sure.
    Mr. Souder. Well, Mr. Giddens and Mr. Krone, if you could 
address that question? Because I know proprietary information 
comes in here, particularly in development.
    A second thing is, can you say what you have invested, at 
this point, what your intention would--who to do this? At the 
very least, are these going to be repetitive costs, as we go 
on? Just address some of the cost question of where we are 
headed.
    Mr. Giddens, do you want to start? And then Mr. Krone.
    Mr. Giddens. Sir, which part of your question did you want 
me----
    Mr. Souder. Well, do you have a--this demonstration or 
first step, first part, however you want to call this Project 
28, if this is deemed worthwhile to go ahead, where do we head 
in costs? Is it higher than the original estimate? If you 
choose to rebid because you are dissatisfied, what do you own? 
Where do you see this heading?
    Mr. Giddens. If we decide to go forward with P28, we will 
continue to look at that as a prototype, and we could take some 
of the early parts of the follow-on system and test that in the 
field.
    But regardless of whether P28 works or not, there is 
additional design work and additional maturing of the system 
that has to happen. And that is the work that we had planned 
for even back in 2007 to be done. Regardless of if P28 would 
have delivered on time and met everything, it is still not our 
end-state system, and it was not designed to be the end-state 
system. So we have funds budgeted and plans and contracts under 
way doing that design work. So I don't see that all the 
products on P28 would even be applied to that future.
    Mr. Souder. And if you rebid, would you have the existing 
information and technology? Or is that proprietary to Boeing, 
at this point?
    Mr. Giddens. No, sir. If we rebid this, the products that 
have been delivered to us would be ours. I don't want to say 
that there is no proprietary software in this, because some of 
this are computers that have Microsoft and other software 
within it, so there would be some proprietary----
    Mr. Souder. So the key, quite frankly, to the companies and 
different contracts, if they win, if they were released and 
turned over to the Government, it could impact them. I mean, 
That is why I say we deal with this in other areas, but, in 
this case, we are fairly wedded, it seems to me, at this point, 
depending on how you have worded things. And the costs could go 
up extraordinarily, depending on how this develops.
    Mr. Krone, I am already over time, but I want to hear 
your----
    Mr. Krone. Please, I would like to address those issues, as 
well. Those are all really good questions.
    On our contract, the Government has full government purpose 
rights for all the software and all the intellectual property 
that we created under the fixed-price task order, under Project 
28.
    As Greg said, because it is heavily COTS, commercial off-
the-shelf, we have bought software from our supply team for the 
express use for P28, for which the Government would not get 
unfettered government purpose rights. There is a license 
agreement that we have, you know, with Unisys, for instance, 
and they get what we have, right, but they don't get GPR beyond 
what we have. But for all the value-added content created by 
Boeing, the Government has full and unfettered government-
purpose rights.
    Let's see, you asked about the specific cost. And, you 
know, I would be pleased to maybe, after the hearing, trade 
specific numbers with you, sir. But I would tell you that we 
have spent over twice the contract value.
    And the money that we have spent is not the cost of the 
tower, the cost of the radar, the cost of things that will be 
duplicated as we expand the technology solution across the 
southern border. We have spent money on integration, on what we 
would call nonrecurrent recurring tasks, software and 
integration that would be reused as we expand the technological 
solution.
    I would add, relative to your competitive question, that 
perhaps the competitive advantage that Boeing obtains from 
working on P28, more than in the intellectual property, more 
than in the software, is the experience of our engineers and 
our design teams of actually going through the process of 
integrating commercial off-the-shelf hardware in this 
environment in cooperation with the Border Patrol. That, if you 
will, value, which really is embodied in the minds of the 
engineers that we have working on the program, that perhaps, 
sir, is the competitive advantage that we gain from working on 
P28.
    Thank you.
    Ms. Sanchez. Thank you, Mr. Souder.
    I just have a very quick comment to Mr. Giddens.
    You mentioned that, ``regardless of whether Project 28 
works or not.'' That startles me. Does that mean you are 
anticipating maybe it doesn't work?
    And then, what is the recourse that DHS will take? I mean, 
will we ask for our $17 million or $18 million or whatever we 
have paid to Boeing and you are going to start over?
    You know, because when you say ``regardless,'' I mean, you 
are not even anticipating--``We have problems, but we are 
working, we are doing''--regardless of whether it works or not. 
So you already have, as one of the options, that it may not 
work, really.
    Mr. Giddens. I think you are reading more into that than 
what I meant. My purpose in that was to indicate, based on Mr. 
Souder's question about P28 and what happens moving forward, 
that, regardless of whether P28 had worked even on time, we 
still knew that was a prototype and there was more design work 
and more integration work to be done.
    But, at the same time, I don't want to sit here and say 
that there is 100 percent certainty that we will get through 
the testing in November. As I indicated earlier, there are 
still issues that Boeing is working through in the integration 
aspect. And we are looking forward to starting the system's 
verification testing. But this is not a certainty.
    Ms. Sanchez. I see that the Chairman, the full Chairman is 
back.
    And, Mr. Chairman, I would like to recognize you for 5 
minutes.
    Mr. Thompson. Thank you very much, Madam Chairman. I 
appreciate your recognizing me.
    Mr. Giddens, one of the concerns of the SBInet project is 
the staffing. You testified earlier before this committee on 
those numbers. Can you reflect on the full-time staffing 
positions you have within your office now?
    Mr. Giddens. Yes, sir. We have 255.
    Mr. Thompson. Government full-time equivalents?
    Mr. Giddens. Of Government, it is 115.
    Mr. Thompson. How many contractors?
    Mr. Giddens. 140.
    Mr. Thompson. So you have more contractors working in your 
shop than you have Government employees?
    Mr. Giddens. Yes, sir.
    Mr. Thompson. Why is that?
    Mr. Giddens. One of the reasons for that is we were in a 
rapid startup in 2007, and we were able to bring in support 
contractors at a higher rate than we could bring on Government 
employees.
    And, as we have discussed earlier, it is our goal, by early 
next year, to be at the 50/50 and then have more Government 
employees than we do support contractors. And that is still our 
goal.
    Mr. Thompson. If my recollection serves me, you were 
supposed to provide us with some information on the cost of the 
full-time Government employees versus the contract employees. 
Have we received that information yet?
    Mr. Giddens. I am not sure, sir. I will go back and check 
that and get back with the staff.
    Mr. Thompson. Okay. Well, in case you have not, I will make 
my request again. Is it your testimony that those contract 
employees cost the Government more money?
    Mr. Giddens. I think, on average, support contractors, if 
you look at it particularly on a per-hour basis, cost more than 
Government employees.
    Mr. Thompson. What is your experience in your shop right 
now? Is it one and a half times, two times? Or would you just 
care to just provide us with that information?
    Mr. Giddens. I would rather take that back and give you the 
hard answer.
    Mr. Thompson. But is it your belief that it is costing us 
more?
    Mr. Giddens. Yes, sir.
    Mr. Thompson. Is it one contractor or a series of 
contractors?
    Mr. Giddens. We have several contractors working in our 
office from different companies.
    Mr. Thompson. Okay. Will you provide us the names of those 
contractors and the contract amount also?
    Mr. Giddens. Yes.
    Mr. Thompson. At what point next year do you plan to--you 
referenced some time next year.
    Mr. Giddens. Yes, sir. I believe the early part of next 
year we will be at the 50/50 mark, and then we will nudge above 
that with the Government people.
    Mr. Thompson. Okay.
    Another issue speaks to the fence. Is your office still 
negotiating with the land owners, with respect to the fence?
    Mr. Giddens. Yes, sir. Our office, as well as the Army 
Corps, as well as the Border Patrol down at the center and 
station level, are engaged in that.
    Mr. Thompson. So who has primary responsibility?
    Mr. Giddens. We have primary responsibility, in my office.
    Mr. Thompson. Are you aware of some kind of meeting taking 
place, where land owners would be paid some amount of money for 
attending a meeting?
    Mr. Giddens. No, sir.
    Mr. Thompson. You are not aware of that?
    Mr. Giddens. No, sir. The land owners are paid to attend a 
meeting? No, sir.
    Mr. Thompson. Are you aware of any discussions that went on 
with the Department, where land owners would be paid to attend 
the meeting?
    Mr. Giddens. No, sir.
    Mr. Cuellar. Mr. Chairman?
    Mr. Thompson. I will yield to the gentleman from south 
Texas.
    Mr. Cuellar. Mr. Chairman, I think the $3,000 that you are 
probably referring to was not to be used to get them to attend 
the meeting.
    But my understanding, Mr. Giddens, is that, at one time, 
you all were considering to pay $3,000, I guess as a retainer 
to allow the entry of access, so you can go in and survey the 
land. Is that correct?
    Mr. Giddens. Sir, I appreciate you clearing it up.
    And, Chairman Thompson, I didn't catch where that was 
going.
    Mr. Cuellar. And I didn't want to--at least that is what 
they were referring to. You might want to ask them.
    Mr. Giddens. So if I could, then, to put a slight 
clarification, sir, on what Congressman Cuellar had indicated. 
We did look, at one time, of having $3,000, not for the right 
to enter and survey, but the right to begin construction while 
we finalized the real estate acquisition and the final price. 
But it was not to enter for survey, but it was actually a right 
for construction. But, in the end, we decided not to do that.
    Mr. Thompson. Okay. So the payment is now off the table?
    Mr. Giddens. Yes, sir.
    Mr. Thompson. Okay.
    I guess, Mr. Krone, one of my concerns with this contract 
is that--am I not correct that Boeing actually tendered Project 
28 to the Government this summer?
    Mr. Krone. Well, we went through the process called the 
systems verification test, but we didn't pass the systems 
verification test. And as such, the Government has not taken 
over ownership of the project. It is still, if you will, under 
the guidance of Boeing, and we are still making----
    Mr. Thompson. I guess my point is, if you had passed the 
systems verification that you submitted to the Government----
    Mr. Krone. Correct.
    Mr. Thompson. Which is equivalent to tendering to the 
Government.
    Mr. Krone. That is correct.
    Mr. Thompson. But you did not pass.
    Mr. Krone. We did not pass.
    Mr. Thompson. Do you think the Government was wrong in 
turning Boeing's tendering down?
    Mr. Krone. No, I do not.
    Mr. Thompson. So the Government acted responsibly?
    Mr. Krone. Yes, sir.
    Mr. Thompson. Well, that is interesting. You also testified 
that, at this point, Project 28 has cost twice the contract 
value. Now, is it Boeing's intentions to eat the cost 
differential in this contract?
    Mr. Krone. Yes, sir.
    Mr. Thompson. Boeing does not plan to submit a change order 
or any kind of modification for payment, with respect to 
Project 28?
    Mr. Krone. No. Boeing has no plans to submit a claim or 
request for adjustment for the work done under P28.
    Mr. Thompson. Mr. Giddens, is that your understanding also?
    Mr. Giddens. Sir, I don't think I am in a position to 
discuss what Boeing's internal plans are. But we have had no 
indication that they have any intent to do that.
    Mr. Thompson. Well, I guess, then, is it the Department's 
intentions not to approve any change orders relative--if 
submissions did occur?
    Mr. Giddens. Sir, if Boeing submits any claim associated 
with its contract, we would have to consider that under its 
merit. I can't say that, no matter what they submit, we are not 
going to consider it. I mean, we have to consider it and make a 
ruling.
    Mr. Thompson. Well, you have heard testimony where they 
have said they spent twice the money. And if, in fact--and they 
might not do it. But if they submit it based on expenditures 
spent, is it your testimony that you will just look at it, at 
this point?
    Mr. Giddens. Sir, I don't believe there is a process that 
would allow Boeing to make a reasonable claim that on a firm 
fixed-price contract, if it cost them more, that they would 
just send us what it cost in addition to the contract value.
    Mr. Thompson. So the Project 28 is a fixed-price contract?
    Mr. Giddens. Yes, sir.
    Mr. Thompson. And whatever the cost beyond that fixed 
price, it is Boeing's cost. Is that your testimony to the 
committee?
    Mr. Giddens. Yes, sir.
    Mr. Thompson. Thank you.
    Mr. Carney. [Presiding.] Thank you, Mr. Chair.
    The Chair now recognizes Mr. Reichert for 5 minutes.
    Mr. Reichert. Thank you, Mr. Chairman.
    I want to get back to a question asked by the Chairwoman a 
little bit earlier. We have had testimony that the system is 
operational today. Did I understand that correctly?
    Mr. Krone. Let's see, I don't want to mischaracterize. To 
say the system is operational I think connotes the end of a 
process which requires a series of tests.
    Mr. Reichert. It is in use?
    Mr. Krone. It is in partial use. We have gone--well, let's 
see if I can keep this short. We have been through a series of 
tests. We are down for a period of stability testing. We will 
then enter another series of tests.
    It has been used on-again/off-again during down time and as 
part of some of the tests that we have run. But I don't want to 
characterize that the system has been turned over to the 
Government and is in operational use today. Okay? And I know 
that is maybe a fine distinction, but I want to make sure that 
the record doesn't show that, as of today, it is in, you know, 
unfettered operational use.
    Mr. Reichert. No, I understand there is further work to be 
done.
    Mr. Krone. Thank you.
    Mr. Reichert. Chief, what is your opinion of its current 
operational value?
    Chief Gilbert. Sir, currently we aren't using the system at 
all. The agents are working on training to get familiar with 
it, but it hasn't been deployed.
    The five primary functions that Project 28 was supposed to 
deliver to the NGOs or the operator have not been met. We are 
not at a point where we can even test it in the field, because 
it hasn't been delivered to us.
    Mr. Reichert. What about the 44 vehicles that are outfitted 
with the equipment?
    Chief Gilbert. Currently, sir, we are not utilizing those 
vehicles. The mobile data terminals, is what we refer them to 
as, the MDTs, they are not deployed. Our agents are not working 
in the consuls, at this time. I know there are some other type 
vehicles out there that are owned by Boeing where this testing 
is going on. But we are not part of that process, so we are 
kind of on the sidelines.
    We, again, as an end-user and a customer, waiting to have 
this product delivered to us, so we can test it to see what its 
operational value is.
    Mr. Reichert. Okay.
    Further comment on that?
    Mr. Krone. No. And, again, just for clarity, it is still 
under the custodianship of Boeing. You know, again, we think 
the system is stable today. We are going to go into a period of 
stability testing for a couple days. If we are comfortable with 
that, then, in cooperation with CBP and the Border Patrol, we 
will enter the systems verification test. If we succeed with 
that, then we will turn it over.
    Mr. Reichert. Okay. How many subcontractors is Boeing using 
on this project?
    Mr. Krone. Eight or nine at the first tier, although, sir, 
there are other tiers below that. Those subcontractors also 
have subcontractors.
    Mr. Reichert. Are they performing to the expectation that 
Boeing has contracted them with?
    Mr. Krone. Let's see. Generally so. I have been in personal 
contact with CEOs of the top three or four. As we have come 
across issues, they have been very responsive. They are there 
when we need them.
    Frankly, if you run out to the Tucson facility, where we 
are doing the development work, you would see a badgeless 
environment, where people from all of the Boeing team are 
working shoulder to shoulder to get this done. I will tell you, 
I think the industrial team is very, very committed to making 
this successful.
    Mr. Reichert. We know there was another system, the ISIS 
system. Have you looked at that system and seen the failures 
there and incorporated the lack of their success into your 
planning?
    Mr. McElwee. Yes, sir. As a matter of fact, one of the 
companies that acquired--the company that provided the ISIS 
system, L-3, spent a lot of money correcting the problems they 
acquired, and they are now part of our team. They joined the 
team during a proposal phase, and we took all the lessons 
learned that they provided on what worked and what did not work 
from the ISIS.
    Mr. Reichert. Thank you, Mr. Chairman. I yield back.
    Mr. Carney. Thank you, Mr. Reichert.
    The Chair now recognizes Mr. Cuellar from Texas.
    Mr. Cuellar. Thank you.
    This is to Mr. Krone. To follow up on Chairman Thompson's 
question, if the cost of the Project 28 is twice what the 
original price was, how does DHS know what the true cost is?
    It is a pilot program. And we said it is going to cost one 
thing. Now it is double the price. How do we know what the true 
cost is when it is eventually handed over, hopefully, at one 
time, to Homeland? How are they going to determine what the 
price should be?
    Mr. Krone. Well, first of all, we have had relatively, I 
think, open transparency into the costs and the amount of 
effort that we are incurring on P28. But what will drive the 
cost is the number of towers and the number of cameras. The 
areas where we have had issues, sir, has been in integration 
software, which would be used primarily in the command and 
control centers. That software, once it is stable, will be 
reused, so we won't incur those costs again.
    So the large cost driver on a technological solution is 
going to be the distributed sensors and the distributed 
infrastructure and the communications backbone. The costs of 
those components of Project 28, frankly, of the technological 
solution for SBInet, really have not gone up. The money that we 
have spent has been primarily integration work incurred by 
Boeing in getting those components of the system to work 
together.
    So, again, I think with the cost visibility that we have 
today--and I really can't speak for total cost. I can speak for 
our part of the system, related to land rights. And we don't 
understand the cost of the Border Patrol agents and, if you 
will, the tail end of the cost. But relative to the part of the 
system that Boeing is responsible for, the costs are pretty 
transparent and pretty clear. And we don't see the costs of the 
hardware increasing. Again, I think they have a relatively good 
basis for coming up with an estimate of what the technological 
system would cost.
    Mr. Cuellar. So what is the cost right now for Project 28?
    Mr. Krone. You want to know what our incurred cost is?
    Mr. Cuellar. Let's start from the beginning. What are you 
charging DHS?
    Mr. Krone. $20 million. Actually, sir, to be actually 
technically correct, we have billed $16.1 million, which is 75 
percent of the $20 million fixed-price task order.
    And it is not clear whether the final price of Project 28 
will be $16.1 million or all the way up to $20 million. There 
are some incentive milestones and some contractual issues, 
which may mean the actual cost to the Government might indeed 
be less than $20 million if the contractor decides to withhold 
some payments because of Boeing's performance. But it will not 
exceed $20 million.
    Mr. Cuellar. Okay. So let's say it is $20 million. And I 
asked this question--and for the staff, I don't know who was 
supposed to follow up. I had asked some questions last time I 
think you were present. I said for $20 million, you are getting 
nine portable radar camera towers, you are getting two mobile 
command control communication units, you are getting four 
unattended ground sensors, 50 field agent communication 
systems--I assume they are radios. Is that correct?
    Mr. Krone. That is correct. They are the satellite radios.
    Mr. Cuellar. A common operating picture, which is----
    Mr. Krone. Correct. That is the software that drives the 
screens in the command and control center.
    Mr. Cuellar. Seventy satellite phones. Correct?
    Mr. Krone. Yeah.
    Mr. Cuellar. Out of the $20 million, how much is the cost 
of that equipment that I just listed, percentage-wise, roughly?
    Mr. Krone. Roughly half. We can provide you the precise 
number, although I would ask you to get that from CBP because 
they hold the contract. But roughly half.
    Mr. Cuellar. So you are saying for $10 million, that is the 
cost of that equipment?
    Mr. Krone. Yeah, the hardware, sir, in our cost, you know, 
is an independent variable trade, so what we call our cave 
trades and picking the equipment. Now, the towers and equipment 
is relatively low-cost. The radars are in the tens of thousands 
of dollars. The IR cameras are in the tens of thousands of 
dollars. The large dollars that we have incurred have been on 
integration. And, I mean, this is not untypical of other large 
systems integrations efforts that we have had.
    Mr. Cuellar. Okay. Could I ask the staff again, Mr. 
Chairman, to follow up on the question that I asked last time, 
unless we have that available? The last time, I asked very 
specific questions on the cost of the unit for each of the 
items that I mentioned, and I still haven't--have you all 
provided that to our committee?
    Mr. Krone. Well, our customer has that data, and we will 
follow up and make sure that the committee gets a copy of that.
    Mr. Cuellar. Well, DHS could you provide this? This is, for 
the record, my second request.
    And I want to know, out of the $20 million, I want to know 
what the unit cost is for each of the items, for each of the 
items. And then I want to know--or if it adds up to $10 
million, I assume the rest is integration, which is, what, 
putting it together?
    Mr. Krone. Putting it together, writing software, doing 
tests, doing user evaluations. Frankly, a lot of that is what 
we would call labor. It is engineers working on requirements. 
It is engineers cutting code.
    Sir, could I make one additional point?
    Mr. Cuellar. Yes.
    Mr. Krone. It is, again, just that we would provide, say, 
on P28, a tower. And it has a price, right, so it has a radar 
and communications. What Boeing doesn't provide is the land 
underneath the tower. We don't provide the lease access. We 
don't provide any support we might get from CBP or from the 
Border Patrol. We don't provide the agents that you saw in the 
command and control center.
    So we can provide you a cost of hardware. That is not 
necessarily the total cost to the Government to field the 
system.
    Mr. Cuellar. I understand that.
    And I know my time is up, but I really, really want to get 
this.
    And my second request is, I want to know what the unit cost 
is for each of the items I mentioned. And I want to know where 
the other--I assume another $10 million. And if you can 
specify, I think he just went over engineering and integration, 
is how you put it on that. Could you get--since this is my 
second request--could we get this within 5 working days?
    Mr. Giddens. Yes, sir. I will take that back and start it 
immediately.
    Mr. Cuellar. All right. If you could provide it to the 
committee. Thank you.
    Mr. Carney. Thank you, Mr. Cuellar.
    The Chair now recognize Mr. Souder for 5 minutes.
    Mr. Souder. Thanks.
    And perhaps some of my questions can be followed up with 
Mr. Cuellar's and packaged, because I am wrestling with this.
    Mr. Gilbert, you haven't seen whether the operating system 
works yet? Is that what your testimony is?
    Chief Gilbert. Yes. We have not deployed this in the field. 
We are not using it in an operational standpoint. It is still 
in the systems development phase.
    Mr. Souder. Are you talking to the Border Patrol agents 
that are part of the process?
    Chief Gilbert. Yes, sir. They work for me. What they are 
doing is they are using their area knowledge and their 
expertise of our mission to feed that in to Boeing, into SBI, 
as they are developing the system.
    Mr. Souder. Are they satisfied? What feedback are you 
getting from them?
    Chief Gilbert. Well, from our operational standpoint, no, 
sir, we aren't satisfied. But we know, from a systems 
standpoint, that the feedback I am getting from our agents is 
there is some progress being made. It has sped up since the 
agents are now allowed to give input. The contract issues are 
resolved, so now we are in that process. But we are not into 
the testing at all.
    Mr. Souder. And, Mr. Krone, I understood you to say that 
the common operating system is one of the things that the 
Federal Government is purchasing. And presumably, in your mind, 
is this going to be able to then be extended along the border?
    Because I am trying to reconcile that with what Mr. Giddens 
said, is that you have planned that you were going to have to 
have additional work after you have had the system added over. 
What does that mean? And is this going to have to be redone 
again?
    Mr. Krone. Let me see if I can expand on the comments that 
we have made.
    So the acquisition strategy was to deploy Project 28 
quickly and get it into the hands of the Border Patrol agents. 
To do that, we used an off-the-shelf common operating 
environment, common operating picture, software. And that is 
what we have had integration problems with, and that is what we 
have spent the money and the time to fix and, frankly, to 
enhance and add capability.
    We have gotten input from the Border Patrol agents, the 
auto focus, some of these features that they wanted, which 
weren't contemplated to be in there. We are actually putting 
those in at Boeing cost. And that is the task order, what is 
called a Project 28.
    Under the SBInet overall IDIQ, there are other task orders. 
There is what we call the C-cubed, or the command, control and 
communications, task order, which is to take the COP from P28--
again, if you think of it as a demonstration or a prototype and 
to expand it and to scale it, right, so it can function across 
the whole southern border. So we are not going to throw code 
away, right? We are going to reuse it, enhance it, right, and 
grow it so that it can function across the entire southern 
border.
    And the C-cubed task order--which we are not under contract 
for yet, but we anticipate that we will be shortly--is to go to 
enhance the Project 28 common operating picture and make it 
useable for the larger deployed system.
    Mr. Souder. I somewhat understood what you were saying, 
but----
    Mr. Krone. Sorry.
    Mr. Souder. ----it worries me, because this is 
significantly different. It comes back to questions asked early 
on in this hearing, as to whether this was a functional example 
or was a prototype that has a lot of work in front of it, that, 
quite frankly, don't even know if it is going to be accepted, 
may require a lot of rework to move, and is a different concept 
than I think that we were aware of.
    Mr. Krone. Sir, if I could elaborate. And, you know, I 
understand, given your district, you have a lot of experience 
in the Department of Defense, and frankly, you know, that is my 
background as well.
    I would liken P28 to a Block 1.0 system. And we intend, 
over the life of this program, to go to a Block 1.5, a Block 
2.0, and to continue to upgrade the common operating 
environment and, frankly, other aspects of the technological 
solution for SBInet over time.
    And where there is a better radar, where there is a better 
filter that we can put into the system, we will run that 
through our configuration change board, and we will get a 
design release, and we will incorporate that into what might be 
an annual upgrade to the common operating environment.
    And so, just as, like, on the F-22 program, you used a 
prototype, right, to gain lessons learned that you immediately 
incorporated into the production program, really the way we 
have structured the SBInet program is really a preplanned 
product improvement approach with a block upgrade strategy.
    And, again, I am sorry for going that far off into the 
defense acronyms. But I think you might recognize that kind of 
approach from some of the programs we have had in DOD.
    Mr. Souder. Thank you. I appreciate that approach, and it 
is what we use a lot. However, the American people were looking 
toward at least having a small portion of the border sealed. 
And it sounds like this is going to be a lot longer process 
than most of us ever dreamed.
    I yield back.
    Mr. Carney. I thank you.
    The Chair recognizes the Chairman of the committee, Mr. 
Thompson, for 5 minutes.
    Mr. Thompson. Thank you very much.
    Mr. Krone, you talked about the different blocks, 1.0, 1.5. 
But at this point, 1.0 is not working, am I correct?
    Mr. Krone. Again, to be completely accurate, at this point 
in time, 1.0 is actually today--and we statused this morning 
before we came into the hearing--there are no deficiencies 
against the 1.0 today, sir.
    And I don't want to say that, as we enter stability 
testing, you know, again, some issues might come up. But we are 
very pleased with where we are right now. Now, it has not been 
deployed; it has not been turned over to the Border Patrol. But 
I wouldn't characterize it as not working.
    Mr. Thompson. What would you characterize it as?
    Mr. Krone. Actually, I would characterize that we have 
worked off all our deficiency reports. We have put in what we 
believe is the final patch on some camera memory software. And 
we are going to enter a period of stability testing. If we 
succeed through the stability testing, then we will be ready to 
turn it over for what is called systems verification testing.
    So I would tell you it is in the very late stages of 
development and, within a short period of time, ready for 
customer testing.
    Mr. Thompson. I guess for some of us on the committee, it 
is hard to believe that we are still testing, when a product 
was submitted to the Department as a finished product and it 
was refused. And if you could just explain that to the 
committee, I think it would be very, very helpful.
    Mr. Krone. Well, I will do the best job I can, sir.
    So we came out of, if you will, that last systems 
verification test with comments and, frankly, test matrixes 
from the Border Patrol. In there, they connoted a series of 
deficiencies in the system. We then took those deficiencies and 
ran them through our engineering process so that we could alter 
and enhance the system to address the deficiencies identified 
by the Border Patrol. That is what has taken an additional 12 
weeks, is to go address those areas where the Border Patrol 
thought the system was lacking. All right?
    We have implemented those changes into a variety of the 
components of the system, some in the radar, some in the camera 
system, occurred a lot in the common operating picture 
software. And we are now, once again, to the point where the 
system has entered customer test. As I said, we have completed 
the certification and accreditation scans.
    And we, you know, again, installed the last patches, we 
believe, today. The system was stable, frankly, as we walked 
into the hearing. We suspect it will remain stable. If it does, 
then we will be in a position--all right, we will do some 
testing, they will do some stability testing, and then we will 
be able to enter system verification testing again.
    Mr. Thompson. Well, part of my statement said we have been 
here before, and your statement kind of reaffirms that we are 
here for the second time. Can you give the committee a 
reasonable expectation of a date certain, at this point?
    Mr. Krone. And if I could, sir, I would like to repeat what 
I said in the member briefing on the 25th of September. And, at 
that time, we felt we would begin customer testing in the month 
of October, sir, which we have done.
    And we thought that we would see customer acceptance in the 
month of November. And, sir, as I recall, I was asked whether I 
could absolutely, positively say that the system would be 
accepted by the customer in the month of November. And my 
response, at that time, was--and I am an engineer, so please 
bear with me--a 90 percent probability that we will succeed in 
customer acceptance in the month of November.
    We have met our testing goal in the month of October, and I 
still think we have a 90 percent probability that we will have 
a Project 28 system accepted by the customer and turned over 
for use in the month of November.
    Mr. Thompson. Thank you, Mr. Chairman.
    Mr. Carney. Thank you, Mr. Thompson.
    The Chair now recognizes Mr. Green for 5 minutes.
    Mr. Green. Thank you, Mr. Subcommittee Chair.
    And I thank the full committee Chair.
    And the full committee Chair has really preempted any 
questions that I have, so I will quickly move through this. But 
I appreciate the means by which he was able to extract the 
information, because I was going to take another approach, and 
I think his approach was a much better approach.
    So thank you, Mr. Chairman.
    Let me just ask about the $3,000 that we are offering to 
persons to negotiate. Where are we with that project? If you 
would, please, someone.
    Mr. Giddens. Sir, we discussed that briefly earlier. That 
$3,000 was one of the options that we looked at, not for the 
right of entry, but something that we looked at for right of 
construction when we go through the process before we finalize 
the actual cost and execute the real estate transaction. When 
those options were looked at, we decided not to pursue that as 
an option. So that is no longer in our plans.
    Mr. Green. No longer an option, and no money was expended 
in the project?
    Mr. Giddens. No, sir.
    Mr. Green. What will happen--and I think this is a question 
many persons are interested in hearing the answer to. What will 
happen when negotiation is not as fruitful as you would want it 
to be?
    Mr. Giddens. What happens in that case is we come back and 
we look at where is that parcel--because this has to be done at 
the parcel level. And there are places where a two-mile stretch 
of fence that we have proposed to locate may have 20 or 30 
owners. So at each parcel, you have to make that determination.
    We would come back, bring that information back to Customs 
and Border Protection leadership and work with Border Patrol to 
get their insight on the criticality of that fence. So you 
could have a two-mile segment that, for a quarter of a mile or 
an eighth of a mile in the middle of it, the land owner said, 
``I don't want to sell.'' And if you build around that, then 
you are going to have wings with an eighth of the mile in the 
middle without a fence, that will then become a funnel 
potentially for aliens to come through.
    So we are not looking to make any of those decisions before 
their time. The Secretary has indicated that this is a national 
issue. And while he reserves the right in terms of 
condemnation, that is not, clearly, our first step. The Border 
Patrol's analysis on the criticality is one of the big factors 
that has to come into play.
    Mr. Green. Is there a process in place, such that we the 
Members of Congress would be aware of how you are proceeding 
once you get to that point in the implementation phase?
    Mr. Giddens. Yes. We would be happy to come and, for 
members of the subcommittee, to keep them apprised of progress, 
going through, much like we did I think 2 or 3 weeks ago when 
we reached out to all the border States and Members and 
indicated where we were in the process. And we would look to 
continue that transparency.
    Mr. Green. I ask because it is sometimes difficult to read 
about these things in the newspaper and have an intelligent 
response to constituents who will want to know what is really 
going on. It is helpful to hear about them before they hit the 
newspaper, if at all possible. Sometimes I question how things 
get to the news media before they can get to me. But I think it 
is important for us to at least have some knowledge of what is 
happening.
    Mr. Giddens. Yes, sir. I will share that. But I would also 
like to indicate that, frankly, there are things that come out 
in the paper that surprise us, that are not even what we are 
doing. So I would ask your indulgence that, as we work to keep 
you apprised, that if you read something, it may not 
necessarily mean that it is true.
    Mr. Green. Yes, sir. I do understand that. I have read a 
few things about myself that I have had issue with.
    Mr. Giddens. Sir, but I don't want to downplay your comment 
though, to keep the information transparent, and we will do 
that.
    Mr. Green. All right.
    The final comment will come back to where I initially 
entered this. And the Chairman was absolutely on target, and I 
commend him and thank him for the way he handled it.
    But I do want to ask you about your 90 percent assurance. 
My belief is that with this 90 percent assurance in the month 
of December, we should have a report, at some point, from what 
happened in November, so that we will know that the 90 percent 
assurance was, in fact, something that was effective in 
November. Will we get that in December?
    What I am saying is, you will now turn the system over in 
November. At some point, we will get a report about what 
happened when you made that turnover. Would that come in 
December?
    Mr. Giddens. Sir, if you don't mind, I might be most 
appropriate to take that, because that report would come from 
us, once Boeing turns that system over to us. And the Border 
Patrol will start to use it in an operational sense. And then 
we will learn from that, as we continue to mature the next 
version of P28. And we would be happy to provide a report to 
that in December. And I would suggest that there may be touch 
points after December as well.
    Mr. Green. Well, the reason that that is important is, 
obviously, because either we get a report or we have a hearing. 
Usually, that is one of the two ways that I am aware of that we 
will get the information. And it does not end with turning it 
over. There is something that is an analysis of the benefits of 
having the system in place and, maybe, some of the things that 
are not quite so beneficial that have taken place that we 
should be aware of.
    Mr. Giddens. Absolutely, sir. That is one of the things 
that we are so anxious for, is to try to get that in the 
operators' hands to start learning some of those lessons. 
Because we realize, as a prototype system, it is not going to 
completely meet their needs. That is why we had budgeted for 
money to mature this system through 2008.
    So you are absolutely right. Those things will be critical 
for us. Those will be nuggets that we need to learn to improve 
the system.
    Mr. Green. In December, we can look for those nuggets?
    Mr. Giddens. Yes, sir.
    Mr. Green. Okay. Thank you very much.
    Mr. Giddens. It will not end in December. We will continue 
to learn beyond December.
    Mr. Green. Yes, sir.
    I yield back. Thank you, Mr. Chairman. You have been more 
than generous.
    Mr. Carney. Thank you, Mr. Green.
    Mr. Giddens and Chief Gilbert, how long does it take to 
certify the system is working from an operational perspective?
    Chief Gilbert. We have never tested a system like this, 
sir, so I do not have an answer. But we have been working in, 
you know, the border arena for decades now, and we are hoping 
that, once we see it, we will know it. I do not have a time 
frame that I can put on that.
    It was marketed to the Border Patrol--I should say it was 
briefed to the Border Patrol as a proof of concept, you know, 
with five primary functions. And that is what we are going to 
hold everybody to, and that is what we, as the end user, are 
going to look for. It has to meet our requirements of 
detection, of identification, classification, of response and 
resolution, and it has to work as a system. If it works as 
individual parts, then, for us, as an operator, it fails. It is 
nothing more than a high-priced camera system.
    All of those five components have to be met for us to call 
that operation successful.
    Mr. Carney. And it has to work for how many months 
consecutively, or weeks consecutively?
    Chief Gilbert. I do not have an answer, sir. As I said, we 
have not been down this road before.
    Mr. Carney. Okay. That does not instill a lot of 
confidence, frankly. If you have not gone down this road 
before, how are we going to know if we are getting the system 
we want?
    You know, we are going to have to work through this; I get 
it. But, you know, we have a system that has not worked yet. It 
was rejected by the Government at least once. We are hoping it 
works now, and if it does work, we are not sure what 
``working'' means.
    Mr. Giddens. Sir, can I add one minor clarification?
    We talked about getting a system that works like we want 
it. When we talked about--the Chief just used the term ``proof 
of concept.'' I mean, we know there will be things on P28 that 
do not meet the operators' needs. That is when we had planned 
to do spirals after this.
    And what we are anxious to do is to focus in on those 
nuggets to know exactly where we have to hone and expand this 
to build for the future. But it has to provide some, at least, 
minimally operational capability so they can use it enough to 
gain insights from it.
    Mr. Carney. Okay. Well, let me assure everyone that this 
full committee and, certainly, our subcommittees are very 
interested in the progress of P28.
    All right. I thank the witnesses for their testimony and 
the members for their questions.
    Members may have additional questions, and we will ask you 
to respond expeditiously in writing.
    Hearing no further business, this subcommittee stands 
adjourned.
    [Whereupon, at 4:49 p.m., the subcommittee was adjourned.]


                Appendix I:   Prepared Opening Statement

                              ----------                              


   Prepared Opening Statement of the Honorable Sheila Jackson Lee, a 
           Representative in Congress from the State of Texas

    Chairwoman Sanchez, thank you for convening this hearing, and I 
would like to thank our distinguished panelists.
    A critical component of the strategy to control U.S. borders is the 
Department of Homeland Security's plan to launch a comprehensive 
program to transform border control technology and infrastructure. The 
goal of SBInet is to field the most effective mix of current and next 
generation technology, infrastructure, and staffing and response 
platforms. SBInet will integrate multiple state-of-the-art systems and 
traditional security infrastructure into a single comprehensive border 
security suite for the department. The SBInet acquisition will provide 
an integrated solution that will support the interdiction of illegal 
immigration and internal and external threats operating in or moving 
through the international borders with Canada and Mexico.
    This program will reduce our nation's vulnerability to terrorism 
and protects national interest while enhancing DHS' border security and 
control missions. This program will also support DHS' strategic, 
operational and tactical decision makers. This program will provide 
information to DHS that affords them a common operational picture and 
an accurate assessment of the operational environment. Finally this 
program will provide members of the border enforcement community with 
the information necessary to support homeland security strategies and 
plans for unity of effort.
    The elements of SBInet include the ability to detect an entry when 
it occurs; identify what the entry is; classify the entrants level of 
threat (i.e.--who the entrant is, what the entrant is doing, how many, 
etc.); respond effectively and efficiently to the entry, and bring the 
situation to the appropriate law enforcement resolution.
    The scope of the SBInet program includes 6,000 miles of the border, 
and provides DHS and Customs and Border Patrol (CBP) with the optimum 
mix of personnel, technology, infrastructure, and response platforms to 
detect, identify, classify, and respond to illegal breaches of the 
international borders with Canada and Mexico and thereby bring the 
situations to the appropriate law enforcement resolution.
    The purpose of the hearing is to provide members with an 
opportunity to hear from and ask questions of the Department and its 
lead contractor regarding the SBInet program, with a particular focus 
on the Project 28 portion of SBInet, which is scheduled to be completed 
on June 13.
    The time and expense of recruiting, hiring and training additional 
Border Patrol Agents has made technology an attractive option as a 
means to address staffing shortages and enable round-the-clock 
coverage. The original impetus to secure such a tactical technological 
advantage began in 1995 with the initial development of the Integrated 
Surveillance Intelligence System (ISIS). ISIS was a network of three 
separate legacy components: (1) cameras; (2) in-ground sensors, and (3) 
the Intelligent Computer-Aided Detection system (ICAD). ISIS, however, 
was hampered by technological failures and, according to the General 
Services Administration, ineffective management. After 10 years and an 
expense of $239 million, DHS ended the programs.
    In 2003, the Department began developing the American Shield 
Initiative (ASI) with the goal of maintaining and modernizing ISIS 
while expanding the technological capabilities of the program. Like 
ISIS, ASI was intended to be a technology-based program with in-ground 
sensors, cameras and manned control centers. Congress appropriated $51 
million for ASI in FY2006, but the Department abandoned the program in 
2005 without issuing any documents seeking contractors to implement the 
ASI program. At the time that ASI was abandoned, the Department had 
spent $439 million and covered only four percent of the border.
    In the wake of the failures of ISIS and ASI, the Department 
announced the Secure Border Initiative on November 2, 2005. SBI is a 
multi-year plan aimed at securing America's borders and reducing 
illegal migration. The major components of SBI are: (1) adding more 
agents to patrol the borders, securing the ports of entry, and 
enforcing immigration laws; (2) ending ``catch and release'' of other-
than-Mexicans through expedited removal and additional detention space; 
(3) implementing new border security technology; (4) constructing 
additional border infrastructure, including fencing; and (5) increasing 
enforcement of immigration laws in the interior of the U.S.
    SBI includes a technology and infrastructure component called 
SBInet, which is intended to create a virtual fence along the nation's 
borders using cameras, sensors, and other equipment. According to the 
Department, the goal of SBInet is to ``field the most effective mix of 
current and next-generation technology, infrastructure, staffing, and 
response platforms and will integrate multiple state of the art system 
and traditional security infrastructure into a single comprehensive 
border security system. Once operational, SBInet will provide ``real-
time'' situational awareness to Border Patrol officers.
    Madame Chairwoman, despite the great promise of the program and 
assurances from DHS that the program will be a substantial guarantee to 
secure our borders, I regret that it seemed to be plagued by a number 
of problems.
    It appears that Project 28 intended to provide surveillance system 
that would monitor 28 miles of the border which was scheduled to become 
operational in 2007 is continuing to miss its testing deadlines. This 
poses a question about whether DHS has imposed a date for the project 
to be completed.
    On the technical side of Project 28, the radar system fails to 
differentiate between people and animals or trees thus signaling 
``false positives'' and failing to detect illegal entries--the primary 
purpose of the program.
    DHS also seems to be conducting effective oversight of the program 
especially in the light of similar projects that have failed in the 
past. This raise questions about the ability of DHS to do so in this 
critical area.
    Another challenge seems to be the fact the Border Patrol, the 
primary guardian of our borders, has not been properly engaged in the 
project. It is critical that Border Patrol be fully engaged so that 
their valuable input is part of the comprehensive solution.
    Madame Chairwoman , I would like to stress that lack of 
coordination with other federal agencies which has plagued DHS' mission 
since its conception seem to be the case with this critical project, 
too. I understand that the project has not been poorly coordinating 
with state, local and tribal entities in addition to agencies such as 
the ``Fish and Wildlife Service''. Our nation's border security can not 
be achieved without the close collaboration of stake-holders such as 
the ones mentioned above.
    Madame Chairwoman, coming from the border state of Texas, I am very 
concerned that DHS has not taken into account the concern and interests 
of local communities , as well as environmental groups such as the 
``Sierra Club''. Some of the most spectacular nature and landscapes in 
our country reach with unique flora and fauna is along the Rio Grande 
River--natural border with Mexico. DHS should work closely with 
stakeholders in Texas to ensure that the unique natural environment is 
not irreparably damaged because of the fencing and also improve 
collaboration with local authorities in Texas regarding building of the 
fence.
    Madame Chairwoman,
    The SBI initiative has vast contracting component and great deal of 
American Taxpayers money spent on the project. DHS historically had 
difficulty ensuring equitable terms in contacting and elimination of 
fraud and waste. As part the DHS oversight of the project, I would like 
to stress that DHS should make sure that small, minority and women-
owned businesses business are note put at a disadvantage during the 
contracting and sub-contracting process. I am very proud that my 
district, Harris County and Houston ranks 6th and Texas ranked 5th in 
the country for the largest number of African-American owned firms, 
following New York, California, Florida, and Georgia. Minority and 
women-owned businesses across the country will appreciate the effort to 
preserve their opportunity to compete for these contracts. I encourage 
my colleagues to remember that there are a great many barriers to 
minority and women business professionals, and provisions such as these 
preserve equal access and open opportunities.
    Madame Chair, from the experience related to SBInet so far and the 
surveillance part of the program, Project 28, it appears that it will 
not be the comprehensive solution that it was initially presented fro 
by DHS. With previous similar efforts failed in the past, we can't 
simply afford failing again and DHS should be hold fully accountable by 
Congress for the outcome of this critical border security program.
    Chairwoman Sanchez, I thank you again for convening this important 
hearing eagerly look forward to hearing from our witnesses today.
    I yield back the remainder of my time.


            APPENDIX II:  Additional Questions and Responses

                              ----------                              


  Questions submitted by the Honorable Bennie G. Thompson, Chairman, 
                     Committee on Homeland Security

                     Responses from Gregory Giddens

    Question 1.: Project 28 towers are located in remote locations over 
a relatively large area in Arizona. How are they being secured 
currently, and how will they be secured if and when the Department 
accepts Project 28? What is the cost of employing the contractors that 
currently guard the towers? Are Border Patrol Agents currently being 
taken from the field to secure the towers? Will they be if and when the 
Department accepts Project 28?
    Response: Boeing has contracted with Pinkerton Security to protect 
the assets at Boeing's expense until the system is accepted. We are not 
able to speak to the terms of Boeing's contract with Pinkerton Security 
as this is an expense that Boeing is responsible for and will not be 
included within the P-28 contract. There have not been any Border 
Patrol Agents assigned to protect the towers, and there are no plans 
for agents to secure the towers at anytime.
    After acceptance, a Tower Self Protection system will include:
        <bullet> Perimeter Fence provides a visual and physical 
        deterrent to individuals approaching the tower.
        <bullet> Loud Hailer (2 loud speakers) which enables the 
        operator to verbally warn off potential intruders via a public 
        address (PA) system and Voice over Internet Protocol (VoIP) 
        technology.
        <bullet> Anti-Climb Provisions protect the tower-mounted 
        components, if other deterrents are breached. Anti-Climb 
        Provisions include fence surrounding the tower perimeter as 
        well as a casing that will encompass the foundation of the 
        tower that would deter climbing.
        <bullet> Unattended Ground Sensors

    Question 2.: In your testimony, you describe a Change Control Board 
that has been established by Boeing to prevent further schedule 
slippages. What is the involvement of the Department in the Change 
Control Board? Has the Department's involvement in the development of 
Project 28 increased with the establishment of the Change Control 
Board?
    Response: A Change Control Board (CCB) ensures that the system 
configuration is known to DHS, and that changes and patches are planned 
and understood by DHS before implementation. This has allowed DHS to 
become more involved in the planning and design of P28.That said, DHS 
is a ``nonvoting'' member on the Change Control Board, and functions on 
the board to:
        <bullet> rovide technical feedback/concurrence on changes 
        requiring assessment;
        <bullet> Represent the interests of CBP; and
        <bullet> Ensure board decisions are communicated to SBInet 
        senior leadership.
    Overall, DHS's experience has been positive with the CCB. The board 
has helped in improving coordination and integration of Boeing and 
supplier/partner changes; recognizing and communicating potential 
impacts to DHS; and providing tracking, reporting, and communication of 
integrated change requests and software problem reports/anomalies.

    Question 3.: According to Boeing, Project 28 has cost the company 
much more than the Indefinite-Delivery-Indefinite Quantity contracted 
price of $20 million. Can we expect the common operating picture in 
other task orders to cost the government comparably more than the 
estimated price for Project 28?
    Response: The Project 28 contract is not an Indefinite-Delivery-
Indefinite Quantity (IDIQ) contract; it is a firm fixed price task 
order awarded under the SBInet master contract. Project 28 was 
developed by Boeing as part of its proposal submitted in response to 
the initial Request for Proposal (RFP) for SBInet. We do expect that 
future task orders will cost more than $20 million due to the software 
and development required to meet the Common Operating Picture (COP) 
requirements.

    Question 4.: If and when Project 28 becomes fully operational, what 
percentage of illegal crossings do you anticipate the system being able 
to capture?
    Response: P-28 is a prototype system that will deploy technology to 
assist with apprehensions. The Border Patrol will still have the 
mission of bringing illegal crossings to a successful law enforcement 
resolution. DHS and CBP are looking for the P-28 system to provide the 
capability to measure the effectiveness of the technology deployed as 
well as help transform how the Border Patrol conducts operations along 
the Nation's borders.

    Question 5.: What affect are the delays with Project 28 having on 
other projects such as Texas Mobile and Project 37?
    Response: P-28 delays have had an impact on our technology 
deployment schedule for the Barry M. Goldwater Range (BMGR) and Texas 
Mobile projects. CBP anticipates that these projects will be deployed 
later in 2008 than originally planned, by approximately 6 months. 
Lessons learned, P-28 has had a technical impact on the Tucson and Yuma 
sector deployments.

    Question 6.: In your testimony before the Committee, you stated 
that the Secure Border Initiative office has 255 employees, with 115 of 
them being government employees and 140 being contract employees. 
Please provide a cost comparison per government employee versus 
contract employee. Also, please provide the name of the contractors 
providing employees and the value of each contract.
    Response: Within the Secure Border Initiative (SBI) office, 
government employees and contractors are working in different roles, 
are at varying levels within the organization, and bring different 
specific experience and expertise to the program. Therefore, it is 
impossible to directly compare the costs of a government employee 
versus a contractor. Over 2/3 of SBI's government employees are at the 
GS-14 or GS-15 levels. The CBP position model costs for these grade 
level positions are approximately $165,000 and $186,000, respectively. 
The costs for a contractor average approximately $280,000 (including 
benefits, overhead, and fee). Government personnel and contractor 
personnel have distinct roles; contractors cannot perform inherently 
governmental functions but support the program in a range of areas. 
Contractors bring to the SBI program specific expertise in areas such 
as systems engineering, project management, tactical infrastructure, 
technology, and process management. Following are the names of the 
contractors supporting the SBI office and the value of each contract:
        <bullet> Booz Allen Hamilton (BAH)--$1,950,000
        <bullet> CapGemini--$455,155
        <bullet> Mitre--$2,850,000
        <bullet> Organization Strategies, Inc. (OSI)--$3,794,966
        <bullet> Robbins-Gioia--$21,122,009
        <bullet> General Dynamics/Signal Solutions--$591,674

    Question 7.: At a hearing the Management Subcommittee held in the 
109th Congress, the Inspector General for the Department of Homeland 
Security testified that estimates of the cost for deploying SBInet on 
the southwest and northern borders ranged from $8 billion to as high as 
$30 billion.
    When do you expect SBInet to work and how much will the total 
program cost?
    Do you have any preliminary estimates on the cost of operations and 
maintenance for SBInet once it is working and installed?
    Response: DHS is incrementally developing and delivering SBInet 
border security solutions. By the end of 2008, we project completion of 
370 miles of pedestrian fence, over 200 miles of vehicle fence, and 
communications, cameras, and radar towers across the Southwest Border. 
In addition, SBInet technology and Communications, Command and Control 
Intelligence (C3I) systems will be deployed to the Tucson and Yuma 
sectors.
    Our FY 2008 President's Budget request identifies approximately 
$793 million for the design, development, testing, deployment, program 
management, and operations and maintenance for the above deployment 
priorities. Of this amount, DHS requested $78 million to provide 
operations and maintenance of this initial capability. These activities 
would include, but not be limited to----
        <bullet> Maintenance and logistics support, to include materiel 
        and supply support (e.g., equipment spares), sustaining 
        engineering, recurring/periodic maintenance services, program 
        consumables, and training;
        <bullet> Property management services;
        <bullet> Ongoing support for legacy Border Patrol systems 
        already fielded;
        <bullet> Fees for leased land-lines and satellite 
        communications; and,
        <bullet> Government field offices, warehousing, and support 
        facilities.
    As we continue expanding the SBInet deployment, we project 
Operations and Maintenance cost requirements will remain at 
approximately 10----15% of the total program investment.

    Question 8.: Under the terms of the existing contract for Project 
28, the Committee has been advised that DHS has not paid the entire 
amount of $20 million and Boeing currently is absorbing the daily costs 
to fix the problems.
    How much has DHS paid to date for Project 28?
    Is Boeing absorbing the daily costs? If so, approximately how much 
is Boeing spending per day?
    At what point do you say ``it's time to fish or cut bait,'' and go 
in a new direction?
    What components, if any, do you plan to use from Project 28 along 
other parts of the border?
    When do you intend to begin testing and ultimately deploying SBInet 
on the northern border?
    Response: DHS awarded a $20 million Firm Fixed Price Task Order 
(subsequently modified to $20.665 million for the addition of a command 
center COP) for the P-28 system. Of this amount, and as of November 30, 
2007, the government has paid $14.2 million. The balance of funds is 
available to Boeing pending completion of successful system 
verification testing and the government's acceptance of the system. 
Because this is a firm fixed price task order, and Boeing fell short of 
a successful initial delivery, Boeing is now fully subsidizing all of 
the corrective actions, follow-on tests, and some equipment 
replacement. We are not aware of the additional costs above the target 
$20.665 million price Boeing has incurred to-date.
    Notwithstanding the shortcomings of the initial P-28 demonstration, 
we are satisfied with Boeing's progress fixing the system. Boeing's 
latest testing demonstrated fully functioning sensors, communications, 
and command and control tools. Pending the results of system 
verification testing, we anticipate maintaining an operational system, 
conducting additional operational testing with Border Patrol Agents, 
and using the P-28 configuration for future CONOPs development and 
examining alternative surveillance and detection equipment and 
software.
    Consistent with congressional direction, we have set aside $20 
million to design and conduct a technology demonstration in the Great 
Lakes maritime environment that will tightly integrate aviation assets 
(a key component of our Northern Border strategy). We are currently 
reviewing proposals within CBP with respect to specific locations and 
technology configurations.

    Question 9.: In the 109th Congress, the Management Subcommittee 
held three hearings on the existing camera and sensor system, called 
ISIS. Our review found a lack of program oversight, cameras that did 
not work, camera poles lying on the desert floor, and millions of 
dollars wasted.
    What steps are you taking to ensure the problems of ISIS are not 
repeated in SBInet?
    What safeguards are in place to ensure sound management and 
financial accountability of SBInet?
    Reasponse: CBP's general approach to SBInet implementation is 
carefully tailored to ensure sound management and financial 
accountability. Because the scope of the program is so large, SBInet 
has adopted an incremental approach to successfully plan, design, 
integrate and deploy the SBInet solution across our Nation's borders. 
This approach enables CBP to:
        <bullet> Manage uncertainty
        <bullet> Match appropriate resources with approved requirements
        <bullet> Verify the performance of designs to be deployed
        <bullet> Manage construction and deployment processes and 
        schedules
    For example, the SBInet solution will be developed on two tracks:
        <bullet> System-Level Toolbox Design (cameras, radars, sensors, 
        communications, etc.)
        <bullet> Project Laydown designs and deployments
    This two-track approach allows CBP to consider System-Level Toolbox 
technologies that are applicable to multiple geographic areas while 
also addressing unique challenges within each geographic area. In 
selecting System-Level Toolbox technologies, SBInet and the prime 
contractor take a long-term view of the their performance, production 
lead times, life cycle cost, supportability and other factors relevant 
to sound investment decision-making. All technologies will be tested at 
the component, subassembly, and system level before being accepted into 
the Toolbox.
    The Project Laydown design and deployment process applies these 
proven technologies to the threats and challenges of specific border 
locations. Since Project Laydowns are based on previously integrated 
and tested technologies, cost and schedule risk related to immature 
technology is reduced. SBInet will not deploy technology until its 
effectiveness can be proven.
    Additionally, the program office employs sound financial management 
practices to establish and maintain accountability across both the 
government and contractor organizations. First, we have adopted an 
``alpha'' contracting process that includes both the government and 
contractor developing a joint basis of estimate for contracting 
actions. This ``alpha'' process significantly improves transparency and 
synchronization of work products and estimated resources (funding) 
prior to contract award(s). Similarly, the program office implements 
earned value management to ensure we have valid, executable work plans 
(and product deliveries) on contract, that resources are appropriately 
allocated to all tasks, and recurring reporting to highlight not only 
expenditure rates but also program cost efficiency. Each month the 
government and contractor senior staffs review progress and issues, and 
effect corrective actions as needed.
    CBP is well aware of the problems the General Services 
Administration faced in constructing the ISIS system and we are 
determined to make sure the government has learned from those mistakes.

    Question 10.: During our hearing on June 16, 2005, a representative 
of L-3 Communications Government Services, Inc.--the company that 
acquired International Microwave Corporation (IMC) and took over the 
ISIS project--testified that the cost of installing a fixed, 60-foot 
camera pole and a camera at just one site was approximately $300,000. 
Do you know the current cost to install a fixed camera pole and camera 
under SBInet? Could you please provide for the record a detailed break-
out of costs for the cameras, radars, ground sensors, fixed poles, and 
mobile camera towers used in SBInet?
    Response: The SBInet program has concluded selection of sensor 
equipment and tower designs that will support our near-term SBInet 
deployment to Arizona. These estimated unit costs, which vary by vendor 
and specification, are as follows:
        <bullet> Unattended Ground Sensors (UGS)
                <bullet> Base Station, approx $15,000
                <bullet> Repeater, approx $16,500
                <bullet> Sensor unit, approx $5,600--$6,700
        <bullet> Ground Radar, short range, approx $89,000--$128,000
        <bullet> Ground Radar, long range, approx $128,000--$174,000
        <bullet> EO/IR Camera, short range, approx $89,000--$102,000
        <bullet> EO/IR Camera, medium range, approx $98,000--$115,000
        <bullet> EO/IR Camera, long range, approx $98,000--$188,000* 
        80-foot SBInet Standard Tower, approx $21,000
    For planning purposes, we estimate the total procurement and 
assembly cost of an SBInet surveillance and detection tower (with our 
baseline of the 80-foot radar, EO/IR, communications tower) at 
approximately $750,000, which also includes power generation and 
distribution systems, additional network communications equipment, 
self-protection/ security systems, and foundations. The total 
procurement and installation cost would increase to approximately $4 
million when factoring in land acquisition/leasing, environmental 
surveys and permitting, pre-construction surveys and permitting, 
construction access roads to remote sites, integration and checkout, 
testing associated consumables (e.g., transportation fuel), and 
apportioned systems engineering and program management costs.

    Question 11.: Recent news reports indicated that DHS is now using 
steel from China to build the fence along the southwest border. One 
report noted that pipes marked ``China'' were holding the fence in 
place in the area around San Luis, Arizona. The report also indicated 
that DHS waived the Buy American requirements to purchase Chinese pipe 
and tubes.
    Why are you using steel from China to build the border fence? From 
where are you purchasing the Chinese steel?
    Have you demonstrated that a sufficient amount of steel cannot be 
purchased from domestic sources? If so, how did you select Chinese 
steel, rather than pipe and tubes from another country?
    How long do you intend to use Chinese steel in constructing the 
border fence?
    Mr. Giddens, is the news article correct that DHS waived the Buy 
American requirements?
    Reponse: Supporting our nation's domestic industries and fiscal 
responsibility are important values. The Department of Homeland 
Security (DHS) supports both of these principles in its contracts, 
including those supporting the efforts of our Secure Border Initiative. 
U.S. Customs and Border Protection (CBP) and the U.S. Army Corp of 
Engineers utilized a number of new and preexisting supply and 
construction contracts, and blanket purchase agreements to accomplish 
Project Fence 70 (PF 70) this past fall. The contracts utilized 
included a mix of small and large U.S. businesses. No foreign companies 
were awarded prime contracts for this work.
    Our SBI construction and supply contracts fully comply with the 
requirements of the Buy American Act (the Act), and requirements for 
complying with the Act were not waived. The Act requires Federal 
agencies to grant a preference to American-made goods and materials 
when acquiring materials for public use or awarding contracts for 
public works. The provisions of the Act are further refined by 
Executive Order 10582 which establishes the threshold level for 
treating an item of mixed origins as domestic. Where the cost of the 
qualifying domestic components in an item, such as fencing, constitutes 
more than 50% of the cost of all components used, the item satisfies 
the requirements of the Act. Further, our contractors are required to 
test and certify fence components to internationally recognized 
American Society for Testing and Materials (ASTM) standards to ensure 
quality and durability.
    A small number of foreign component suppliers were utilized by our 
prime contractors. For the fence project in San Luis, Arizona, where 
foreign components were included in the fence, 90% of the fence was 
solely American produced, and 10% of the fence included a mix of both 
domestic and foreign components. The portion of fence that included a 
mix of components fully complied with the Buy American Act, including 
approximately 57% domestically made components. More importantly, 
although some foreign components were used in this portion of the 
project, the fence was manufactured by a small U.S. owned company.
    We have requested the small business contractor who utilized 
Chinese components in the fence supplied to CBP to provide further 
information about their subcontracting and supplier source selection 
process. We have asked that they provide their reasoning for using 
Chinese components, and estimated savings information as well. We 
expect to have this detailed information by early February.

    Question 12.: One effective way to increase border security is to 
use private contractors to free up trained Border Patrol Agents so they 
can be deployed along the borders.
    Under your plans for SBInet, to what extent are you using contract 
personnel as a force multiplier to support the Border Patrol?
    Response: The SBI Transportation Program, a related program 
management office with SBI, has awarded a detainee transportation 
contract that reduces the amount of time agents and officers dedicate 
to the movement of detainees held in CBP custody. This contract has 
been a force multiplier to enable frontline agents and officers to 
resume enforcement duties by providing guard service and detainee 
transportation to Border Patrol Stations, ICE Detention Centers and to 
ports of entry for voluntary return. The contractor maintains and 
operates a fleet of buses and vans outfitted with appropriate security 
and communications systems. Contract staff is certified as security 
officers and hold commercial driver licenses.
    The SBI Transportation Program is planning to expand contract 
services to provide medical guard services and custodial support that 
would further free up CBP agents and officers. Currently, when illegal 
aliens held in CBP custody become ill or injured, frontline agents and 
officers are required to provide 7 X 24 guard services at medical 
facilities. The SBI Transportation Program is also exploring 
opportunities to provide custodial support such as detainee feeding and 
property management at CBP processing centers.
    Below is a list of current assets used by Wackenhut in support of 
CBP operations, successes in fiscal year 2007, and projections for 
2008.
        <bullet> Contract renewed September 13, 2007
                --119 buses. . .added since base year.
                --28 vans. . .16 added since base year.
                --387 transportation security officers. . .added since 
                base year
        <bullet> In FY07 over 580,000 detainees transported and over 
        600,000 Agent/Officer hours freed up for primary law 
        enforcement and investigative duties.
        <bullet> FY08 contract will likely free up over 750,000 Agent/
        Officer hours.
    SBI is also looking at utilizing support contracts for maintenance 
of displayed technology and tactical infrastructure.

   Question submitted by Hon. Bennie G. Thompson for Chief Robert W. 
                           Gilbert Responses

    Question 13.: To what extent have the delays in Project 28 affected 
enforcement operations in the Tucson Sector? How have the delays in 
Project 28 affected agent perception about the utility of the system?
    Response: the delays have had an operational impact due to the 
extensive man hours required for system testing, which has taken some 
agents out of the field temporarily. While this testing has been 
necessary, it has led to some apprehension about the operability of the 
system. Expectations for the performance of the project have been high 
due to the cost for the system, but the current perception is that the 
full system design capabilities and integration may not perform up to 
these high expectations. However, as this is a ``proof of concept'' 
system to provide core operational capabilities, most agents are aware 
that this is a first step toward the full SBInet system design and is 
part of an evolutionary process.

    Question 14.: What type of interactions did the Border Patrol, and 
more specifically the Tucson Sector, have in the beginning stages of 
Project 28 development and deployment? What type of input has the 
Tucson Sector had in the retooling of SBInet since June 2007, the 
original date for operation?
    Response: As part of CBP, SBInet awarded the Boeing Company a Fixed 
Price Task Order for $20 million for P-28 on October 20, 2006. This 
contract was for Boeing to independently develop a border security 
prototype, without customer input. Since the June 13th deadline, the 
SBInet team at Tucson Sector has been able to participate in the 
corrective action process and has been able to give operational input.

    Question 15.: If and when Project 28 becomes operational, what do 
you believe will be the biggest difference in how the Border Patrol 
operates?
    Response: P-28 is an initial development model for SBInet. P-28 
provides operational technology in an area that, prior to P-28, did not 
have these resources, increasing the Border Patrol's operational 
efficiency. This will allow them to focus more on responding than on 
surveillance and detection. It will also provide a command and control 
capability to allow the officers and agents to make more timely and 
informed operational decisions.

    Question 16.: If Project 28 detects all or most of the illegal 
entries within a given area, do you have the boots on the ground to 
respond and the detention space necessary to house individuals?
    Response: CBP has forecasted an appropriate increase in border 
Patrols Agents based on expected detection capabilities of the P-28 
system. However, until P-28 is fully operational, it is difficult to 
say what the requirements will be to respond to the volume of illegal 
activity that will be detected. We also expect to have enough 
capability for housing and processing a potential increase of 
apprehended aliens at the Nogales Processing Center. Further, ongoing 
operations have continued to deter illegal activity, resulting in a 
reduction in apprehensions across the Southwest Border. We believe that 
we will have resources in place to address law enforcement needs as 
SBInet deploys.

    Question 17.: Chief Patrol Agent Gilbert, when I toured the 
southwest border, I heard from Border Patrol Agents about the threat 
they face from rocks thrown by illegal aliens.
    Could you please describe the types of vehicles Border Patrol 
Agents use in the Tucson Sector and how many have shatterproof or 
shatter-resistant windows?
    What are your plans to increase the number of vehicles that can 
withstand these attacks?
    Have you considered acquiring other types of vehicles that are 
better equipped to withstand attacks and to improve the safety of 
Border Patrol Agents?
    Response: Currently, Tucson Sector has eight rock resistant 
vehicles. These vehicles are standard Border Patrol vehicles to which 
metal screens are welded in order to protect the windows; none are 
equipped with shatterproof or shatter-resistant windows. The screen 
over the windshield collapses down so as to not obstruct the drivers 
view when driving.
    Contingent on availability of vehicles and the necessity of rock-
resistant vehicles, Tucson Sector is planning to outfit approximately 
14 additional vehicles in this way.
    Tucson Sector is not currently looking at other types of vehicles, 
although we are always willing to consider viable alternatives. At 
present, we believe that the vehicles currently in use are providing 
adequate protection against rock attacks.

  Questions submitted by Hon. Bennie G. Thompson for Richard M. Stana 
                               Responses

    Question 1.: It is our understanding that fencing costs in Project 
37 were much higher than initially estimated by the Department. What is 
the driving force behind the escalation in fencing costs in the Barry 
M. Goldwater Range of Project 37? Are you aware of any incentive fees 
to entice Boeing to complete the fence faster?
    Response: In fiscal year 2007, the U.S. Customs and Border 
Protection (CBP) constructed a total of 73 miles of fencing throughout 
the southwest border at an average cost of $2.9 million per mile. 
Approximately 32 of those miles were constructed at the Barry M. 
Goldwater Range (BMGR) in Arizona as part of CBP's Project 37. CBP 
awarded Boeing a cost-plus-fixed-fee contract \1\ to construct the 
fence by September 30, 2007. The contract was modified to provide for a 
payment of an incentive fee on a sliding scale if the work was 
completed before the deadline. According TO CBP, Boeing completed 
construction of the fence on September 30, 2007 and therefore costs did 
not increase because CBP did not pay Boeing an incentive fee. CBP 
expects to have the final expenditure costs for the project by the end 
of November 2007 but preliminary figures indicate that the BMGR fence 
costs an average of about $3.9 million per mile.
---------------------------------------------------------------------------
    \1\ A cost-plus-fixed-fee contract is a cost-reimbursement contract 
that provides for payment to the contractor of a negotiated fee that is 
fixed at the start of the contract. The fixed fee does not vary with 
actual cost, but may be adjusted as a result of changes in the work to 
be performed under the contract.

    Question 2.: If and when Project 28 becomes operational, it is 
anticipated that it will have a dramatic effect on Border Patrol 
operations. What type of planning will the Border Patrol need to 
conduct in order to better assess its operational capabilities and 
needs as more technology becomes utilized along the border?
    CBP officials expect the Secure Border Initiative (SBI) SBInet 
program to support day-to-day border enforcement operations, however, 
analysis of the impact of SBInet technology on the Border Patrol's 
operational procedures cannot be completed at this time because agents 
have not been able to fully use the system as intended. Project 28 is 
the first segment of technology on the southwest border but as of 
November 28, 2007, the system was not operational. The Tucson sector, 
where Project 28 is being deployed, is developing a plan on how to 
integrate SBInet into its operating procedures. Border Patrol officials 
stated they intend to re-evaluate this strategy, as SBInet technology 
is identified and deployed, and as control of the border is 
achieved.inconvenience

 Questions submitted by Hon. Mike Rogers for Richard M. Stana Responses

    Question 1.: Based on your review, what steps do you recommend that 
DHS and Boeing take to ensure SBInet has sufficient program oversight?
    CBP reports that it is taking steps to improve its oversight 
capability for SBInet, but continued focus is needed to ensure the 
program meets performance, cost, and schedule requirements. In February 
2007, we reported that CBP officials expressed concern about 
difficulties in finding an adequate number of staff with the required 
expertise to support planned activities and that staffing shortfalls 
could limit government oversight efforts. According to CBP officials, 
both the SBInet contractor and the program office have lacked the staff 
people they needed to provide appropriate oversight. In fiscal year 
2007, CBP tripled its staffing levels for the SBI Program Management 
Office but fell short of its staffing goal of 270 employees. In 
addition, SBI officials said that a human Capital Management Plan has 
been drafted, but as of November 28, 2007, the plan had not been 
approved. CBP should ensure that program and contractor staffing is 
adequate to support on-going work and for planning future work. In 
addition, since Project 28 is the first technology deployment project, 
systematically collecting and implementing lessons learned throughout 
the duration of the SBInet program could also improve future program 
oversight.

    Question 2.: I understand your testimony represents the first of a 
series of ``Interim Reports.'' Could you please describe how GAO 
intends to keep a close eye on SBInet as it develops over the coming 
years?
    Response: We plan to continue to monitor the SBInet program and 
provide Congress with periodic updates on the status of the program. To 
continue to monitor the implementation of the program, we will continue 
to analyze the Department of Homeland Security (DHS) documents, 
including program schedules and status reports, and workforce data. We 
will interview DHS and CBP headquarters and field officials, including 
representatives of the SBInet Program Management Office, Border Patrol, 
CBP Air and Marine, and the DHS Science and Technology Directorate. We 
will also visit sites where SBInet deployment is underway. We will 
continue to be available to brief the Committee as requested.
    We also have work underway to review other components of the SBInet 
program. Specifically, we are assessing the development and deployment 
of SBInet's command, control, and communications systems, and 
surveillance and detection systems and expect to issue a report next 
year. In addition, we are reviewing DHS's use of performance-based 
services acquisition, an acquisition, method structured around the 
results to be achieved instead of the manner by which the service 
should be performed. We expect to issue a report on this effort in 
January 2008.

    Question 3.: What is the impact of the current delay in Project 28 
on subsequent technology projects under SBInet?
    The SBInet Program Management Office (PMO) has reported that it is 
in the early stages of planning for additional SBInet technology 
projects along the southwest border, however, Boeing's delay in 
completing Project 28 has led the PMO to change the timeline for 
deploying some of these projects. In August 2007, SBInet PMO officials 
told us they were revising the SBInet implementation plan to delay 
interim project milestones for the first phase of SBInet technology 
projects, scheduled for calendar years 2007 and 2008. For example, 
SBInet PMO officials said they were delaying the start dates for two 
projects until after Project 8 is operational and can provide lessons 
learned for planning and deploying additional SBInet technology along 
the southwest border. The first of these, phase three technology 
deployment for Project 37 at the Barry M. Goldwater Range, was to be 
operational in December 2007. The second, the Texas Mobile System, 
technology deployment for about 70 miles of border in the El Paso 
Border Patrol sector, was to be operational in May 2008. However, as of 
November 28, 2007, the SBInet PMO had not provided us with a revised 
deployment schedule. Despite these delays, SBInet PMO officials said 
they still expected to complete all of the first phase of technology 
projects by the end of calendar year 2008.

    Question 4.: Do you believe DHS is doing enough to oversee Boeing's 
fixed-price contract? If not, what more can DHS do to improve contract 
management?
    We believe CBP could have done more to oversee this contract task 
order. CBP selected a firm-fixed-price task order to limit its 
liability for cost overruns on Project 28, since under a fixed price 
arrangement, the contractor agrees to perform the work required at a 
stated price regardless of how much it may actually cost to perform. 
Because all the cost risk is on the contractor, CBP officials correctly 
pointed out to us that the firm-fixed-price contract had limited the 
government's role in directing Boeing in its decision making process. 
But use of a fixed-price contract does not permit CBP to take a 
completely hands-off approach regarding risk management. While the use 
of a fixed-price contract put Project 28's cost risks on Boeing, the 
government shared the schedule and technical risks because Project 28 
was both the first increment of the overall program as well as a 
technology demonstration. CBP should have been more involved in making 
sure that Boeing accurately identified the risks, had adequate plans to 
mitigate them, and was implementing those plans, because more was 
riding on their success at a program-level than just the $20 million 
for Project 28.
    CBP reports that it has taken steps to strengthen its contract 
management for Project 28. For example, citing numerous milestone 
slippages by Boeing during Project 28 implementation, in August 2007, 
CBP sought and reached an agreement with Boeing to give CBP greater 
influence in milestone setting and planning corrective actions on the 
Project 28 task order. Also in August 2007, CBP organized a meeting 
with Boeing representatives to discuss ways to improve the 
collaborative process, the submission of milestones, and Boeing's plan 
to correct Project 28 problems. Following this meeting, CBP and Boeing 
initiated a Change Control Board (CCB). The CCB has been a way to solve 
key issues pertaining to Project 28, and according to a senior SBInet 
official, the CCB has helped improve coordination and integration with 
Boeing. In addition to the steps cited above, CBP can further improve 
contract management by applying lessons learned from Project 28 about 
the need for closer oversight to any future consideration of firm fixed 
price contracts.

                                 <all>

</pre></body></html>
